<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2013

                              ----------                              

                                          Wednesday, March 7, 2012.

              INSTALLATIONS, ENVIRONMENT, ENERGY AND BRAC

                               WITNESSES

HON. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF DEFENSE (INSTALLATIONS 
    AND ENVIRONMENT)
HON. KATHERINE HAMMACK, ASSISTANT SECRETARY OF THE ARMY (INSTALLATIONS, 
    ENERGY AND ENVIRONMENT)
HON. JACKALYNE PFANNESTIEL, ASSISTANT SECRETARY OF THE NAVY 
    (INSTALLATIONS AND ENVIRONMENT)
HON. TERRY A. YONKERS, ASSISTANT SECRETARY OF THE AIR FORCE 
    (INSTALLATIONS, ENVIRONMENT AND LOGISTICS)

                       Chairman Opening Statement

    Mr. Culberson. The Committee on Military Construction, 
Veterans Affairs and Related Agencies will come to order. Thank 
you for joining us.
    I will pass to my good friend, Mr. Bishop of Georgia, for 
any opening remarks comments he would like to make.

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you, Mr. Chairman.
    I would like to thank this distinguished panel.
    I view this hearing as a continuation of our budget 
overview hearing, with a few more topics. As you know, last 
week, we had the military brass before us, and today we have 
the civilian leadership.
    Last week, I thought we had a good hearing that shed light 
on some difficult issues that are facing the Department of 
Defense. Some of these issues include ending two wars, starting 
a force draw-down, and dealing with lower budgets. As you can 
imagine, the Department has a full plate.
    In addition to those issues, let's not forget that 
sequestration is looming due to the Budget Control Act. It 
would be harmful to our national defense if we have 
sequestration. But I would like to also say that it would be 
harmful to all the Federal agencies. And I don't want to give 
the impression that I am only concerned about the Department of 
Defense, because I am concerned about all the agencies.
    There is one more item that concerns me, Mr. Chairman. As 
you know, the fiscal year 2013 budget requested not one but two 
BRAC rounds. As I said last week, the Department should 
proactively consider taking further reductions in the overseas 
bases before initiating another BRAC round for bases in CONUS.
    The witnesses before us are dealing with some of the 
serious challenges that we face, but I want to assure them that 
our subcommittee will do all that we can to make sure that our 
military has everything that it needs to accomplish the mission 
while taking care of our men and women in uniform and their 
families.
    Thanks for the opportunity to share my concerns, and I look 
forward to the discussions and the challenges as we hear from 
the panel this afternoon.
    I yield back; and I am going to go run and vote, Mr. 
Chairman.
    Mr. Culberson. Thank you very much, Sanford.
    This committee, as I know each of you are aware, works arm 
in arm. Perhaps the only real distinction between us is 
geography; and, even then, we are working arm-in-arm.
    I am delighted to have you here. And each one of our 
witnesses--you have all got written statements which, of 
course, will be made a part of the record; and we invite you to 
summarize them.
    We are sort of in a bind here, because I am going to have 
to slip out to go vote. But what we will attempt to do is, as 
soon as one of my colleagues comes in that I can pass the gavel 
to, I will slip out briefly in order to go vote. And then we 
will just rotate so that in the interest of time--because I 
know how busy you all are, and we are delighted to have you 
here.
    If I could, I would like to start with the Honorable 
Dorothy Robyn, Deputy Under Secretary of Defense for 
Installations and the Environment; and I would encourage you to 
please summarize your statement and, of course, it will be made 
a part of the record in its entirety.

                           Opening Statement

    Ms. Robyn. Thank you Chairman Culberson, Ranking Member 
Bishop, and other members of the subcommittee who are not here. 
Thank you for the opportunity to testify on the President's 
budget request for military construction and environmental 
programs.
    I want to touch on three issues very briefly: our MILCON 
and family housing budget, our request for two new BRAC rounds, 
and environment and energy.
    First on MILCON. The Budget Control Act reduced defense 
spending over the FYDP by $259 billion. That, together with 
reductions in force structure, has led us to cut sharply our 
fiscal year 2013 request for MILCON as we reassess our 
infrastructure needs for the new, leaner force structure.
    We are asking for $11.2 billion for MILCON and family 
housing, of which $9.1 billion is for pure MILCON. That is a 
reduction of between 25 and 45 percent from fiscal year 2012, 
depending on the department. The exception is the defense-wide 
MILCON accounts, which are up by 6 percent over fiscal year 
2012, and that reflects support for high-priority improvements 
in hospitals and DoD schools.
    We are requesting another $14 billion to sustain, restore, 
and upgrade the condition of our existing facilities.
    Let me highlight one thing we are not asking money for: 
family housing here in the United States. That is because we 
have now privatized nearly all of our 200,000 units of family 
housing. Using the power of the commercial market, we have 
leveraged a $3 billion investment of DOD dollars to generate 
$27 billion worth of high-quality, well-maintained homes; and 
that has done a lot to improve the quality of life of military 
families. It is an extraordinary success story, the most 
successful reform my office has carried out and something we 
should be looking to do more broadly.
    The second issue, BRAC. We need another BRAC round, ideally 
two. The math is straightforward. Force reductions produce 
excess capacity. Excess capacity is a drain on resources. Only 
through BRAC can we align our infrastructure with our defense 
strategy.
    Let me say two things in anticipation of criticisms and one 
apropos of Congressman Bishop's comment.
    First, we have already made significant reductions in our 
European footprint, and we will do more. I describe in my 
statement both what we have done and the BRAC-like process that 
we will follow looking forward. But even if we make a 
significant cut in our footprint in Europe we will still need a 
domestic BRAC.
    The second point I want to again respond to, critics point 
to the 2005 BRAC round as evidence that BRAC doesn't produce 
savings or at least not in a reasonable period of time. But 
unlike the first four BRAC rounds, which paid off in 2 to 3 
years, the 2005 round was not about savings and eliminating 
excess capacity. Carried out in a post-9/11 environment when 
the Department was at war, it was about transformation. The 
Army, in particular, used BRAC 2005 to carry out major 
transformational initiatives, such as the modularization of 
BCTs, initiatives that would have otherwise taken decades to 
achieve.
    That said, a 2013 BRAC round would look more like the BRAC 
rounds of the 1990s, where the focus was on savings, because 
that is the priority now.
    Issue three, the environment and energy. There is an 
enormous amount to say on this topic. I have a very long 
statement. You will hear from my colleagues about the wonderful 
things that we are doing in the energy area. We are making a 
robust investment to continue our efforts in the environment.
    I want to highlight just one thing in the interest of time, 
and that is technology. Technology has been the Department of 
Defense's comparative advantage for 200 years. The Department 
of Defense is a technology agency. It is an innovation machine. 
Although we tend to talk about technology in the context of 
weapons systems, it is important to harness that advantage for 
what we are trying to do with respect to both the environment 
and energy. Let me give you an example from the environmental 
area.
    A decade ago, the two environmental technology programs 
that I oversee, SERDP and ESTCP, took on a challenge, defending 
technologies that could discriminate between scrap metal and 
hazardous unexploded ordnance, UXO; in other words, distinguish 
beer cans from bombs. The existing technology which we still 
use today cannot make a distinction between those two. The 
false positive rate is 99.989 percent. As a result, contractors 
must dig up literally hundreds of thousands of metal objects in 
order to identify and remove a handful of pieces of UXO.
    Mr. Culberson. That is an unhappy job.
    Ms. Robyn. And contractors are paid for every hole they dig 
up.
    Because this process is so labor-intensive, the bill is 
very high. Our estimated UXO cleanup cost is $14 billion. 
Remarkably, 10 years of investment has yielded technologies 
that can discriminate between UXO and harmless metal objects 
with a very high degree of reliability. We are now doing live-
site demonstrations of this new technology on an accelerated 
basis, and we are working with the cleanup community and State 
regulators to get them comfortable with what is a fundamentally 
new approach, one that we believe can save billions of dollars. 
That is the power of technology.
    Similarly, in the energy area, we can leverage high 
technology. The same folks who brought us the UXO technology 
run something that I oversee called the Installation Energy 
Test Bed, and the rationale is similar.
    In the energy area, as in the environmental area, emerging 
technologies offer a way to significantly reduce DOD's costs 
and improve its performance. But because of fundamental market 
failures, those technologies are very slow to get to market.
    As the owner of 300,000 buildings, it is in the Defense 
Department's direct self-interest to help firms overcome the 
barriers that inhibit innovative technologies from being 
commercialized and/or deployed on our installations; and we do 
this by using our installations as a distributed test bed to 
demonstrate and validate them in a real-world, integrated 
environment. And we have about 70 of these going, and I hope I 
have an opportunity to talk about some of them in short.
    As budgets tighten, we need to invest more smartly. Using 
the market as we have done with housing privatization and 
leveraging advanced technology, as we are doing with our 
Installation Energy Test Beds are critical.
    Thank you for your attention. I look forward to your 
questions.
    Mr. Culberson. Thank you very much, Dr. Robyn.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5969A.001
    
    [GRAPHIC] [TIFF OMITTED] T5969A.002
    
    [GRAPHIC] [TIFF OMITTED] T5969A.003
    
    [GRAPHIC] [TIFF OMITTED] T5969A.004
    
    [GRAPHIC] [TIFF OMITTED] T5969A.005
    
    [GRAPHIC] [TIFF OMITTED] T5969A.006
    
    [GRAPHIC] [TIFF OMITTED] T5969A.007
    
    [GRAPHIC] [TIFF OMITTED] T5969A.008
    
    [GRAPHIC] [TIFF OMITTED] T5969A.009
    
    [GRAPHIC] [TIFF OMITTED] T5969A.010
    
    [GRAPHIC] [TIFF OMITTED] T5969A.011
    
    [GRAPHIC] [TIFF OMITTED] T5969A.012
    
    [GRAPHIC] [TIFF OMITTED] T5969A.013
    
    [GRAPHIC] [TIFF OMITTED] T5969A.014
    
    [GRAPHIC] [TIFF OMITTED] T5969A.015
    
    [GRAPHIC] [TIFF OMITTED] T5969A.016
    
    [GRAPHIC] [TIFF OMITTED] T5969A.017
    
    [GRAPHIC] [TIFF OMITTED] T5969A.018
    
    [GRAPHIC] [TIFF OMITTED] T5969A.019
    
    [GRAPHIC] [TIFF OMITTED] T5969A.020
    
    [GRAPHIC] [TIFF OMITTED] T5969A.021
    
    [GRAPHIC] [TIFF OMITTED] T5969A.022
    
    [GRAPHIC] [TIFF OMITTED] T5969A.023
    
    [GRAPHIC] [TIFF OMITTED] T5969A.024
    
    [GRAPHIC] [TIFF OMITTED] T5969A.025
    
    [GRAPHIC] [TIFF OMITTED] T5969A.026
    
    Mr. Culberson. We go next to Ms. Hammack, if I could; and, 
Madam Secretary, thank you very much for being with us today.

                           Opening Statement

    Ms. Hammack. Thank you very much, Chairman Culberson, 
Representative Bishop, and other members who may join us later. 
On behalf of soldiers, families, and civilians of the U.S. 
Army, I want to thank you for the opportunity to talk to you a 
little bit about our budget for fiscal year 2013.
    The budget request supports an Army that is in transition, 
yet we are still at war. We know the fiscal challenges that the 
Nation faces and are planning accordingly to implement what was 
asked us by the Budget Control Act. The committee's continued 
support will ensure that the Army remains ready, manned, 
trained, and equipped to face the challenges of protecting this 
Nation.
    Mr. Culberson. Secretary Hammack, forgive me. I will have 
to step out and go vote. None of my colleagues are here yet. If 
you would excuse us, we will just have to stand in recess as 
briefly as possible. Thank you for your patience and 
understanding.
    We stand in recess.
    [Recess.]
    Mr. Culberson. The subcommittee will come back to order.
    We thank you for your patience in light of these votes. I 
apologize for the interruption.
    Secretary Hammack, I would ask you to please continue with 
your statement. Thank you very much.
    Ms. Hammack. Thank you very much, Chairman Culberson.
    The Army's budget request reflects the Nation's current 
fiscal reality and is a 32 percent reduction from the prior 
year. Pending the strategic decisions on Army's end strength 
reductions, force structure, and stationing across the country 
has required the Army to review our facility investments and to 
defer some of those investments that could be impacted by force 
structure changes. The Active Army MILCON budget in particular 
has been reduced to defer projects, while we have not taken 
similar cuts in National Guard or Reserve. Once the total Army 
analysis has been completed, the Army will then rebalance the 
fiscal year 2014 military construction budget to meet the needs 
of a realigned force.
    The Army has implemented a Facility Strategy 2020, which is 
a facility investment strategy to provide quality energy 
efficient structures while taking down some of our more 
inefficient buildings. This strategy is a cost-effective and 
efficient approach to facility investments that reduces 
unneeded footprint, saves energy by preserving the most 
efficient facilities, and consolidates functions for better 
space utilization. It also, as I mentioned before, demolishes 
failing buildings and uses appropriate excess facilities as 
lease alternatives.
    For fiscal year 2013, the Army's budget is $3.6 billion, 
103 projects, of which $1.9 billion is Active Army, $614 
million National Guard, and $306 million for the Reserves.
    I want to talk a little bit about Base Realignment and 
Closure, echoing a little bit that Dr. Robyn said, that the 
Army met our BRAC 2005 obligations within the 6-year 
implementation window.
    BRAC 2005 was very different for the Army in that it was a 
transformational BRAC, transformed how the Army trains, 
deploys, supplies, equips, cares for and garrisons its 
soldiers, families, and civilians. We shut down 11 
installations, 387 Reserve component sites, realigned 53 
installations and/or functions at an investment of almost $18 
billion, which included 329 major construction projects.
    As of January, 2012, the Army conveyed an unprecedented 47 
percent of our BRAC 2005 total excess acreage of over 35,000 
acres, which was higher than we had in any other BRAC round. 
Other BRAC rounds waited until the BRAC date of closure and 
then transfer started. But we were able to in this BRAC round 
transfer land during the BRAC process.
    For fiscal year 2013, the Army is requesting about $100 
million for BRAC 2005; and, of that, there is a significant 
portion, about a 50/50 split, for BRAC 2005 to handle 
environmental and caretaker. The 48.4 is the caretaker. But we 
also are requesting $79 million for prior BRAC rounds. The 
prior BRAC rounds, a more significant portion is for the 
environmental cleanup. Only $4 million is for the caretaker 
status.
    The Army does support the DoD request for BRAC authority 
for 2013 and 2015, because changes in force structure will 
necessitate evaluation of our facilities to optimize usage and 
capability. We have listened to Congress and have followed your 
guidance to reduce costs and footprint in Europe and in Korea. 
In Europe, over the last 6 years, we have closed 97 sites and 
returned 23,000 acres. In the next 4 years, we plan to close 
another 23 sites and return 6,400 acres, primarily in Germany. 
In Korea, over the last 6 years, we have closed 34 sites, with 
7,300 acres returned; and in the next 4 years we plan another 
20 sites and 9,400 acres. So we are implementing a BRAC-like 
Base Realignment and Closure overseas similar to what has been 
done in the United States.
    BRAC 2005 also greatly benefited the Army Guard and Reserve 
in that they consolidated on a three-to-one basis out of 
failing facilities into newer facilities, returning that land 
in communities for greater economic use and taxpaying use.
    On energy, the Army has a comprehensive energy and 
sustainability program. Reducing energy at Army facilities is 
mission critical to us, as we have seen energy challenges due 
to recent weather events. The tornadoes that we have seen over 
the last 12 months have had an impact on some of our 
installations in reducing access to energy as power lines go 
down, causing us to rely on generators. So we recognize that 
energy is mission critical to us. It is also operationally 
necessary, while at the same time it is a fiscally prudent use 
of funds.
    Since 2003, the Army has reduced our installation energy 
consumption by 13 percent, while, at the same time, our number 
of active soldiers and civilians has increased by 20 percent.
    The Army also, instead of developing our own high-
performance building code, we adopted a national standard 
ASHRAE 189.1, which is a peer-reviewed, publicly available 
standard, something that is used by contractors in the private 
sector as well and that simplifies working with the Army. It 
also develops or returns to us a 40 percent savings in energy 
and water for new construction.
    We have implemented in the last 12 months a net zero 
initiative, which focuses on reducing energy, water, and waste 
on our Army installations. We have 17 pilot installations that 
are looking to get to a net zero point by 2020.
    We also have implemented an Energy Initiatives Task Force 
that is focusing on large-scale alternative energy production 
to give us the energy security on our installations that we so 
desperately need.
    At the same time, we have accelerated the use of energy 
saving performance contracts. These are contracts where the 
private sector invests in energy efficiency projects and puts 
the capital up to install it on an Army installation, and we 
pay them back out of energy savings. In the first quarter of 
fiscal year 2012, we implemented $93 million of contracts for 
energy saving performance contracts; and that was more than we 
did in all of fiscal year 2011, which was at $74 million. So 
the Army is on track, if not ahead of schedule, to meet the 
goal set by the President of high-performance contracting in 
the military sector.
    At the same time, though, we have been working on our 
process time, which has been a challenge historically in 
getting contracts signed. And we have cut our process time in 
half, down to 12 to 14 months in contracting.
    With that, I would like to thank you for your attention, 
and I look forward to your questions after the other 
secretaries have a chance to introduce.
    Mr. Culberson. Thank you very much, Madam Secretary.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T5969A.027
    
    [GRAPHIC] [TIFF OMITTED] T5969A.028
    
    [GRAPHIC] [TIFF OMITTED] T5969A.029
    
    [GRAPHIC] [TIFF OMITTED] T5969A.030
    
    [GRAPHIC] [TIFF OMITTED] T5969A.031
    
    [GRAPHIC] [TIFF OMITTED] T5969A.032
    
    [GRAPHIC] [TIFF OMITTED] T5969A.033
    
    [GRAPHIC] [TIFF OMITTED] T5969A.034
    
    [GRAPHIC] [TIFF OMITTED] T5969A.035
    
    [GRAPHIC] [TIFF OMITTED] T5969A.036
    
    [GRAPHIC] [TIFF OMITTED] T5969A.037
    
    [GRAPHIC] [TIFF OMITTED] T5969A.038
    
    [GRAPHIC] [TIFF OMITTED] T5969A.039
    
    [GRAPHIC] [TIFF OMITTED] T5969A.040
    
    [GRAPHIC] [TIFF OMITTED] T5969A.041
    
    [GRAPHIC] [TIFF OMITTED] T5969A.042
    
    [GRAPHIC] [TIFF OMITTED] T5969A.043
    
    [GRAPHIC] [TIFF OMITTED] T5969A.044
    
    [GRAPHIC] [TIFF OMITTED] T5969A.045
    
    [GRAPHIC] [TIFF OMITTED] T5969A.046
    
                           Opening Statement

    Mr. Culberson. It is now my pleasure to introduce Secretary 
Pfannenstiel. We are glad to have you here, Assistant Secretary 
of the Navy for Energy, Installations, and Environment. We 
welcome your testimony.
    Ms. Pfannenstiel. Thank you, Chairman Culberson, 
Representative Bishop, and members of the committee. I am 
pleased to appear before you today to provide an overview of 
the Department of Navy's investment in shore infrastructure.
    The Department's fiscal year 2013 budget request includes 
$13 billion of investment in military construction, facility 
sustainment, restoration and modernization, previous rounds of 
BRAC, family housing, environmental restoration, and base 
operating support.
    The military construction request of $1.8 billion supports 
our combatant commanders, new warfighting platforms and 
missions, facilities recapitalization, and servicemember 
quality of life initiatives for the U.S. Navy and Marine Corps. 
Military construction projects in Bahrain and Djibouti support 
high-priority missions in the region, enhance our forward 
presence, and provide stability for U.S. interests. Two 
projects in Spain support the forward deployed naval forces, 
and a project in Romania supports European phased adaptive 
approach infrastructure.
    Equally important are military construction programs that 
invest in support facilities for the Joint Strike Fighter and 
MV-22B, infrastructure improvements, training and education 
facilities, and the safety and security of nuclear weapons in 
the United States.
    I would specifically like to emphasize that we remain 
committed to establishing an operational Marine Corps presence 
on Guam. We know Congress has concern about the execution of 
the Guam military realignment, and we are taking the necessary 
steps to address those concerns and move the program forward. 
The U.S. Government is currently meeting with the government of 
Japan to discuss adjustments to the 2006 realignment roadmap 
agreement.
    As Secretary Panetta has testified, Guam is an important 
part of the U.S. effort to reposture our forces in the Pacific. 
We believe the adjustments being discussed will address 
execution concerns, increase our flexibility, and strengthen 
our presence in the region.
    This is an important year for the Guam realignment. We will 
continue to work with you and our partners on Guam and in Japan 
as more information becomes available.
    As for the 2005 BRAC round, the Department met our legal 
obligations by the statutory deadline of September 15, 2011, 
and successfully implemented all required realignment and 
closure actions, as has been previously specified in our 
business plans.
    Our fiscal year 2013 budget request of $18 million enables 
ongoing environmental restoration, caretaker, and property 
disposal efforts. For prior BRAC rounds, our fiscal year 2013 
budget request of $147 million will enable us to continue 
disposal actions for the remaining 7 percent real property and 
meet the legal requirements for environmental cleanup. The 
Department of the Navy fully supports the Secretary's proposal 
for additional rounds of BRAC to improve the alignment of our 
shore infrastructure with our force structure.
    Finally, we intend to meet the energy goals set forth by 
Congress and the Secretary of the Navy. We recognize that 
energy is a critical resource for maritime aviation 
expeditionary and shore missions. We must strengthen our energy 
security and reduce our vulnerability to price escalations and 
volatility. With this in mind, the Navy and Marine Corps 
continue to reform how we produce, procure, and use energy. Our 
budget request includes $1 billion in fiscal year 2013 and $4 
billion across the FYDP for operational and shore energy 
initiatives.
    To help meet Congress' renewable energy goals and our own 
goal of producing 50 percent of our shore energy from 
alternative sources, we will develop a strategy to facilitate 
the production of large-scale renewable power projects on naval 
installations. We will use third-party financing mechanisms 
such as power purchase agreements, joint ventures, and enhanced 
use leases to avoid adding costs to taxpayers.
    Currently, our bases support about 300 megawatts of 
renewable energy, 270 megawatts of which is produced by a 
geothermal power plant at China Lake. We have awarded contracts 
for three solar projects in the Southwest and are finalizing a 
similar contract in Hawaii. The three awarded power purchase 
agreements at China Lake, Twentynine Palms, and Barstow will 
save the Department $20 million over 20 years. In all three of 
these places, we were paying less per kilowatt hour for 
electricity than we would for conventional power.
    In closing, your support of the Department's fiscal year 
2013 budget request ensures we can build and maintain 
facilities that enable our Navy and Marine Corps to meet the 
diverse challenges of tomorrow.
    Thank you for the opportunity to testify here. I look 
forward to answering your questions.
    Mr. Culberson. Thank you very much for your testimony.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5969A.047
    
    [GRAPHIC] [TIFF OMITTED] T5969A.048
    
    [GRAPHIC] [TIFF OMITTED] T5969A.049
    
    [GRAPHIC] [TIFF OMITTED] T5969A.050
    
    [GRAPHIC] [TIFF OMITTED] T5969A.051
    
    [GRAPHIC] [TIFF OMITTED] T5969A.052
    
    [GRAPHIC] [TIFF OMITTED] T5969A.053
    
    [GRAPHIC] [TIFF OMITTED] T5969A.054
    
    [GRAPHIC] [TIFF OMITTED] T5969A.055
    
    [GRAPHIC] [TIFF OMITTED] T5969A.056
    
    [GRAPHIC] [TIFF OMITTED] T5969A.057
    
    [GRAPHIC] [TIFF OMITTED] T5969A.058
    
    [GRAPHIC] [TIFF OMITTED] T5969A.059
    
    [GRAPHIC] [TIFF OMITTED] T5969A.060
    
    [GRAPHIC] [TIFF OMITTED] T5969A.061
    
    [GRAPHIC] [TIFF OMITTED] T5969A.062
    
    [GRAPHIC] [TIFF OMITTED] T5969A.063
    
    [GRAPHIC] [TIFF OMITTED] T5969A.064
    
    [GRAPHIC] [TIFF OMITTED] T5969A.065
    
    [GRAPHIC] [TIFF OMITTED] T5969A.066
    
    [GRAPHIC] [TIFF OMITTED] T5969A.067
    
    [GRAPHIC] [TIFF OMITTED] T5969A.068
    
    [GRAPHIC] [TIFF OMITTED] T5969A.069
    
    [GRAPHIC] [TIFF OMITTED] T5969A.070
    
    [GRAPHIC] [TIFF OMITTED] T5969A.071
    
    [GRAPHIC] [TIFF OMITTED] T5969A.072
    
    [GRAPHIC] [TIFF OMITTED] T5969A.073
    
    [GRAPHIC] [TIFF OMITTED] T5969A.074
    
    Mr. Culberson. It is now my pleasure to call on Secretary 
Yonkers.
    Of course, your written statement will be made a part of 
the record; and we welcome your summary of your written 
statement. Thank you, sir, for your service and for your 
testimony today.

                           Opening Statement

    Mr. Yonkers. Thank you, Mr. Chairman.
    Thank you all, Congressman Bishop, distinguished members of 
the Subcommittee. I really do appreciate being here today and 
being able to talk to you all about the Air Force's 
installation, energy, and environmental programs; and let me 
just say from the git-go to thank you again for your unwavering 
support of our Air Force and our Airmen and their families.
    Our fiscal year 2013 budget request responds to two main 
drivers: the Budget Control Act that the Congress passed last 
year and the new strategic defense policy that the President 
and Secretary Panetta announced in January. As we prepared our 
fiscal year 2013 budget, we looked across the entire Air Force 
portfolio and made difficult decisions to achieve the Air 
Force's share of that $487 billion in defense savings mandated 
by the Budget Control Act.
    In our installations, energy, and environmental portfolio 
we are focusing on investments and the critical infrastructure 
needed to sustain our air bases and the quality of life 
improvements for our Airmen and their families. We are 
requesting funding to meet the COCOM's most critical facility 
requirements and facility modifications to bed down and sustain 
the Joint Strike Fighter, the MC-12, surveillance aircraft, 
plus the stand-up of an additional B-52 squadron at Minot Air 
Force Base, North Dakota.
    We are ever cognizant of the smart investments that will 
drive down our cost of doing business, and we are requesting 
$215 million this budget year to reduce our energy footprint by 
demolishing old, energy inefficient buildings and upgrading 
systems like HVAC and other high-energy-use systems, 
investments that will have a tangible payback over the FYDP. 
Moreover, we are re-evaluating the policies and contracting 
mechanisms in the areas of military construction and 
environment with the primary objective of reducing construction 
and environmental restoration costs.
    As funding for the military construction becomes more 
austere, we have made a deliberate effort to build only where 
existing capacity is not available or where the cost-benefit 
analysis validates demolishing the aging facilities and 
construction of more efficient and fundamental replacements.
    Our fiscal year 2013 budget request also contains $3.9 
billion for military construction, family housing, and 
facilities sustainment, restoration, and modernization. For 
military construction we are requesting $442 million this year, 
and that is $900 million below fiscal year 2012.
    As you heard in testimony before, the deliberate pause in 
our program is prudent in light of the force structure 
decisions that are stemming from this new defense strategic 
guidance.
    Also on our fiscal year 2013 budget request, we are 
continuing to emphasize first-class housing and strive to 
improve the overall quality of life for our Airmen and their 
families. Our new dorm plan for 2012 to 2016 will guide our 
future investments for sustaining existing facilities and 
recapitalizing those which are inadequate. As we progress 
through 2012, we are nearing completion of our efforts to 
privatize family housing in the continental United States and 
to upgrade family housing overseas, especially in Japan. Our 
fiscal year 2013 budget request for military family housing is 
$580 million.
    On September 15, 2011, like the other Services, the Air 
Force successfully completed its 2005 Base Realignment and 
Closure program on time and within the original $3.8 billion 
budget. This up-front BRAC investment has resulted in $1.4 
billion in annual savings to the Department of Defense, and we 
are reinvesting those dollars today in missions in fiscal year 
2013.
    However, with that being said, I must also say that BRAC 
2005 fell short of the Air Force's expectations and goals to 
reduce our overhead and our operational costs by reducing 
excess installation capacity. Today, 7 years later and almost 
500 fewer aircraft in the inventory, the Air Force continues to 
maintain large amounts of excess infrastructure. It is costing 
us hundreds of millions of dollars a year, and those are 
dollars that we need to invest in other areas.
    The excess capacity that we have at these installations can 
effectively only be eliminated by closing installations. So we 
fully also support the Secretary of Defense's request for two 
more rounds of Base Realignment and Closure.
    Let me close just by touching briefly on our environmental 
programs. This budget year we are asking for $1.1 billion to 
meet our environmental compliance and cleanup requirements at 
our installations, a funding amount that has been relatively 
stable for a number of years.
    Specifically, we are asking for $469 million to meet our 
ongoing compliance commitments. This includes $46 million in 
pollution prevention, again, dollars that will be invested to 
reduce our hazardous waste streams and reduce our environmental 
liabilities and future costs.
    We are requesting $644 million to continue our 
environmental cleanups at both BRAC and non-BRAC bases. Last 
year, we implemented a new cleanup policy that relies on firm, 
fixed-price, performance-based contracts to achieve closure of 
sites. In employing this new method, we have already found that 
it reduces our costs by nearly 20 percent, and we are moving 
sites to closure three times faster.
    Mr. Chairman and members of the subcommittee, we all 
recognize that we are operating in challenging financial times; 
and if sequestration takes effect that is going to be even more 
difficult. We continue to look at every aspect of our 
operations and aggressively pursue efficiencies to reduce our 
cost of doing business without sacrificing either readiness or 
quality of life programs. We will continue to make these 
strategic investments that have the tangible returns that I 
have talked about and do our part to try to meet the financial 
obligations of this Nation.
    I also thank you again for your time and look forward to 
your questions.
    Mr. Culberson. Thank you, Mr. Secretary.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5969A.075
    
    [GRAPHIC] [TIFF OMITTED] T5969A.076
    
    [GRAPHIC] [TIFF OMITTED] T5969A.077
    
    [GRAPHIC] [TIFF OMITTED] T5969A.078
    
    [GRAPHIC] [TIFF OMITTED] T5969A.079
    
    [GRAPHIC] [TIFF OMITTED] T5969A.080
    
    [GRAPHIC] [TIFF OMITTED] T5969A.081
    
    [GRAPHIC] [TIFF OMITTED] T5969A.082
    
    [GRAPHIC] [TIFF OMITTED] T5969A.083
    
    [GRAPHIC] [TIFF OMITTED] T5969A.084
    
    [GRAPHIC] [TIFF OMITTED] T5969A.085
    
    [GRAPHIC] [TIFF OMITTED] T5969A.086
    
    [GRAPHIC] [TIFF OMITTED] T5969A.087
    
    [GRAPHIC] [TIFF OMITTED] T5969A.088
    
    [GRAPHIC] [TIFF OMITTED] T5969A.089
    
    [GRAPHIC] [TIFF OMITTED] T5969A.090
    
    [GRAPHIC] [TIFF OMITTED] T5969A.091
    
    [GRAPHIC] [TIFF OMITTED] T5969A.092
    
                       CURRENT FISCAL ENVIRONMENT

    Mr. Culberson. I know that we have all got questions. I 
will be as brief as I can to ensure time for my colleagues, but 
I have to hit on a couple of things that are particularly 
pressing in my mind and highly relevant to the work of this 
subcommittee.
    You have about $3.9 billion worth of projects. The Air 
Force, Secretary Yonkers, you are presenting about $3.9 billion 
worth of recommendations to us today?
    Mr. Yonkers. $3.9 billion for military construction, and 
facilities sustainment, restoration, and modernization.
    Mr. Culberson. And the result of folks abusing a privilege, 
like a lot of privileges, has lost it here temporarily with 
this earmark thing. It is a great example for all of us. I hope 
the whole subcommittee will work arm in arm. We have got to fix 
this. I hope it is just a temporary problem.
    For example, I am circling back to military construction. 
The Army Corps of Engineers came in to see me. Arizona may not 
have this directly, Jeff, but you will certainly see it. Or, 
obviously, in Kansas it may not be as big a deal.
    But the Panama Canal--I am going to tie this right back 
into what we are doing here today, folks, because it just 
struck me. I didn't realize how bad this problem was.
    The Panama Canal--they are about to open a third Panama 
Canal that will be in the next 12 months open for business, and 
they are going to be able to bring supertankers across the 
Isthmus of Panama. They are all--those giant ships--deeper than 
48 feet. The Port of Houston, the Port of New Orleans, all the 
Ports in the Gulf of Mexico--Mobile might be deeper, I think. 
But almost all of them are 48 feet or shallower.
    So I asked the Corps, all those giant ships--how do we 
bring them into--how do we bring all that cargo, all those 
jobs, all that economic growth into the Gulf of Mexico?
    And the Army Corps said, you can't do it.
    I said, we can't do it? Why?
    Because we would have to authorize them--the Army Corps is 
only authorized to dredge the Ports of Savannah, New Orleans, 
Houston, all of them to 45 feet.
    But it is something we have really got to fix. We have 
really got to fix it.
    So for public works projects, I hope we would all work 
together so we could public works projects for Federal, State, 
or local government that are obviously absolutely transparent 
and in which we do not increase spending and that we don't 
obviously have any conflict of interest ourselves. Because we 
are dead in the water. We cannot expand any of the ports to 
handle all that cargo.

                   FOREIGN MATERIEL EXPLOITATION LAB

    Another one that came to mind that is circling right back 
into the work of the subcommittee is I had a chance to visit 
Wright-Patterson Air Force Base. And God bless them for the 
work they are doing. If you guys get a chance to do it--Jeff, 
when you get to the Senate, I hope you will go see what they 
are doing at Wright-Patterson. It is extraordinary and highly 
classified. But I will say that we all know--and the name of 
the facility, Secretary Yonkers, what is that called out there?
    Mr. Yonkers. It is the NASIC, and it is the foreign 
materiel exploitation laboratory in particular.
    Mr. Culberson. But there is a name for it. The foreign 
materiel acquisition?
    Mr. Yonkers. I thought it was a laboratory, sir.
    Mr. Culberson. Oh, excuse me. Okay.
    Well, the work that y'all do there is extraordinary and 
unique in the United States. They have got multiple customers.
    And remembering that England almost lost the war because of 
the German U-boat menace in the Gulf, and what finally turned 
the tables was a German U-boat was partially sunk and the crew 
got off the ship so fast before it sank. And the British were 
quick enough to go on board, and they captured the Enigma. And 
the British Parliament was able to----
    Oh, here it is. I am sorry. This is out in the open, the 
Foreign Materiel Exploitation Lab. And listen carefully to that 
name.
    I really wanted to make sure we all are focused on this, 
because the testimony we have here before us today is a perfect 
example of why we have really got to fix this problem to 
restore a fundamental obligation of the Congress as stewards of 
the Treasury, as guardians of the Treasury, and to do so in a 
way that obviously we don't want to increase spending. We want 
to make sure it is transparent and there is no conflict of 
interest. But we have got a responsibility.
    When the British captured that U-boat and captured the 
Enigma, the British Parliament was able to invest in a massive 
new facility to take advantage of that and they broke the 
German codes and won the war. That is what saved England, is 
because they were able to intercept Admiral Donitz's messages 
to the U-boats and send out destroyers exactly where the U-
boats were and nail 'em. That saved England, which won the war.
    Now we are handicapped. We can't help the Air Force. When 
is that facility scheduled to be expanded, Secretary Yonkers, 
at Wright-Patterson?
    Mr. Yonkers. Right now, sir, it is in the fiscal year 2016 
military construction.
    Mr. Culberson. 2016. So as Mr. Moran, who has served so 
many years--and so many of y'all have so many more years 
experience at this than I do. The extraordinary work--I hope 
you have been out there to see it, Jim, incredible work that 
they are doing.
    But we are in the position, Judge, as you--in the 
courtroom, I know judges are limited. They have to just sit 
there passively like spectators with a catcher's mitt, and they 
can only handle what drops into their lap.
    And it is just a violation I think of everything that we, 
as policymakers, as stewards of the Treasury, our constituents 
entrust us with this extraordinary privilege to use our good 
judgment. And as the good Lord said, if they lie about the 
little things, they will lie about the big things. Well, 
conversely, if you can trust us with the big things, you can 
trust us with the smaller ones. Long conversation leading up to 
some discussion with the Secretary.
    And I really hope we will all work together, guys, on 
fixing this so we can do public works projects, Federal, State, 
or local, absolutely transparent, no conflict of interest, and 
don't increase spending. Because it is just incredible. If I 
attempt to move--if any of us on this committee, for example, 
for any of the projects that y'all are working on attempted----
    For example, Mr. Yonkers, I hate to keep picking on the Air 
Force, but the list that you have given us, Mr. Secretary, if 
we were to attempt to move a project that you had listed 
further down and move it up, could we do that?
    That is prohibited by the earmark ban. It just doesn't make 
sense.
    It is highly relevant. Because the Israelis are going to 
probably have to deal with Iran some time in the months ahead. 
And God bless y'all for what you are doing, and I won't 
necessarily say where it is being done. But the extraordinary 
work that is being done by our men and women in uniform is 
going to become even more relevant if the Israelis have to take 
out the Iranian nuclear reactor.
    And because of the earmark ban, we can't, as policymakers, 
do what the British Parliament did when they captured the 
Enigma machine. We can't make good policy judgements and move a 
project up on the list. That is nuts, and we have got to fix 
it.
    I want to ask specifically about, if I could, Mr. 
Secretary--actually, to each one of you--an open-ended 
question. And then I will pass it to my good friend from 
Georgia.
    One of my big concerns in the hearing that we just had with 
the chiefs that really concerns me--and I didn't express it as 
well as Senator Levin did. And I just want to quote in today's 
CQ that Senator Levin, at one of their hearings on Wednesday, 
said to the--who did he have in front of him? I am not sure who 
he had in front of him.
    But he said, quote, I am surprised and disappointed to hear 
our military commanders are focused on Afghan force size based 
on what they think might be affordable instead of the number of 
Afghan security forces they believe will be needed to maintain 
security. It strikes me as extremely unwise to base decisions 
on the future size of the Afghan Army and police exclusively on 
projections of future affordability instead of military 
requirements to secure the gains that have been made at great 
cost to America--obviously, to our soldiers, men and women--and 
to prevent the Taliban from returning to power.

        AFFORDABLE RATHER THAN MILITARY REQUIREMENT AND MISSION

    That is one of the things I wanted to ask each one of you, 
to please comment: To what extent are the recommendations that 
the Air Force, the Navy, each one of the Army are making to 
this subcommittee and to the Congress based on what is 
affordable rather than military requirement and mission? That 
is a real source of concern.
    Mr. Yonkers. In the context of military construction?
    Mr. Culberson. Yes. Obviously, the sequestration. We have 
got this asteroid entering the atmosphere that we have to deal 
with and deal with the mandatory programs that are what are 
really killing us. We have to make sure we protect our 
extraordinary defense capability. We have to deal with 
sequestration down the road and deal with, obviously, balancing 
the budget. That is, I hope, going to come out of mandatory, 
primarily. It needs to.
    But to what extent are the recommendations you are making 
to us here today--for example, there is no new construction, 
Mr. Secretary--Secretary Yonkers. The Air Force is not 
proposing any new construction. We talked about this in my 
office. I am just concerned that there is no--are the 
recommendations you are making driven by what you think is 
affordable more so than by what our mission requirements are 
and the needs of the Nation's security?
    Mr. Yonkers. Well, certainly the recommendations that--or 
the requests that we are making here are reflective of what we 
are trying to do under the Budget Control Act and $487 billion 
in cost reductions. But we think we have fine-tuned it to the 
point where we have hit on all of the high notes with regards 
to meeting the requirements that we have to support our COCOM 
commanders and to support our forces. Would we like to have 
more money in the budget to buy more MILCON? Obviously. But, 
right now, it is a belt-tightening situation. So I think we 
have got it right.
    Mr. Culberson. You are not concerned about risk at this 
point with this recommendation?
    Mr. Yonkers. Not at this point in time. I am not concerned 
overly about risk in our military construction or the 
Facilities, Sustainment, Restoration, and Modernization (FSRM) 
program.
    Mr. Culberson. Anyone else want to comment? And then I will 
pass it on to my friend, Mr. Bishop.
    Ms. Pfannenstiel. Mr. Chairman, I would echo what Mr. 
Yonkers has said, that the budget request was based on the 
strategic review of meeting our military mission, and what we 
have put in front of you does meet that mission.
    Ms. Hammack. Thank you.
    From the Army's perspective, we looked at quality and 
capacity. And when we looked across our portfolio and across 
the list of MILCON requests, we looked to spend our money where 
we had failing facilities, buildings that were in what we call 
a Q-4 condition, the worst condition, where they needed 
replacement or where we did not have the capacity that we 
needed in order to do the primary mission. So we rate things on 
a one-to-four scale for quality and capacity.
    So when we prioritize the projects in our list of requests, 
we have prioritized those that were correcting quality and 
capacity issues which we considered to be most mission 
critical.
    Mr. Culberson. Well, thank you. I am taking too much time, 
but I am really exercised, as you can tell.
    My concern is that our responsibility as legislators is to 
make sound policy decisions based on our best judgments. And I 
think we have almost, by the abuse of people in the past and 
with the earmark ban, which really is a temporary situation, I 
hope. We need to fix it. We are sort of reduced to the 
situation of judges, where we just have to deal with what is 
dropped in our lap.
    Thank you for the indulgence, members; and I am going to 
pass it to Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman; and I want 
to thank all of the panel members for your appearance and for 
your service. I guess I will go service by service, starting 
with the Army.

                 PROJECTS DEFERRED FROM FY2013 PROGRAM

    Ms. Hammack, what types of projects were deferred from the 
fiscal year 2013 program as a result of the force draw-down? 
How much of an impact did the lack of a finalized brigade 
combat team structure have on the '13 programs? And when the 
brigade combat team structure is decided, do you think that the 
Army will need to make some changes to its fiscal year 2013 
program? Or will the problems be addressed in 2014?
    Ms. Hammack. The projects that were deferred were primarily 
barracks or brigade combat team centers, and we deferred those 
out and will reprioritize them for fiscal year 2014. We do not 
believe that there is anything in the total Army analysis or 
the core structure change that would have any impact on our 
fiscal year 2013 priorities.
    Mr. Bishop. So you anticipated having to do that in 2014 
because you don't have the brigade combat team structure in 
place now?
    Ms. Hammack. That is correct. And we did not want to be in 
a position where we built property that would become excess. So 
we deferred projects.
    And, again, we are going to conduct a gap analysis once the 
total Army analysis comes out. But at this point in time we do 
not believe there is anything in the fiscal year 2013 budget 
that would be impacted, and we will re-evaluate the projects in 
2014 based upon the force structure decisions.

                      ARMY FACILITY STRATEGY 2020

    Mr. Bishop. Thank you.
    Can you take a few moments and explain what the Army 
Facility Strategy 2020 is to the committee and what metrics 
were used when developing the Army Facility Strategy 2020 and 
explain how the Army used that strategy when putting together 
the 2013 program.
    Ms. Hammack. The Facility Strategy 2020 is taking a look at 
what our capacity is currently and is directly in line with the 
total Army analysis. So as we are evaluating our future force 
structure requirements, we are evaluating that in concert with 
the current capacity and availability on installations. So that 
when the force structure analysis is complete, we will preserve 
the most efficient facilities; we will consolidate functions 
for better space utilization; and then we will demolish failing 
buildings directly in line with what Secretary Yonkers said in 
order to save costs, those facilities that are costing us more 
to sustain than is viable. So we will be consolidating 
operations.

                        OVERSEAS MILCON PROJECTS

    Mr. Bishop. Thank you, ma'am.
    Let me move to the Navy and Marine Corps construction.
    Secretary Pfannenstiel, approximately 30 percent of the 
Navy's construction program is for overseas projects. Can you 
explain the importance of these project requirements?
    And then I would like for you to talk about the homeport 
initiative. What type of progress has been made?
    And is the goal for reaching facility requirement--for E-1 
thru E-4 ranks by 2016 a realistic goal, given the fiscal 
climate that we are in?
    Ms. Pfannenstiel. Certainly, Congressman.
    Taking the first question about the overseas MILCON, much 
of that MILCON is in direct support of the combatant 
commanders' requests there. In Spain, in Djibouti, in Bahrain, 
we are enhancing what the combatant commanders have needed 
there. As well, the construction that is being done overseas--
and it is laid out in detail in my written statement--is 
supporting different missions and different platforms that will 
be moved around both in Europe and in Japan.

                       HOMEPORT ASHORE INITIATIVE

    Mr. Bishop. You are looking a lot to improve the quality of 
life of the junior sailors who are living on ships. Given the 
reduction in end strength that is coming, are you having to re-
evaluate that Homeport Ashore Initiative?
    Ms. Pfannenstiel. The Homeport Ashore Initiative is an 
attempt to get the younger sailors off of the ships and have 
everyone have a bed on shore, and we had anticipated that that 
would take until about 2016 to do that. We are on track to do 
that still. When we have finished, it will have created about 
5,000 spaces for the sailors to get off of the ships and give 
them a bed at shore. So we are on track for that.

                     MARINE CORPS FORCE REALIGNMENT

    Mr. Bishop. Okay. And the final question is, the United 
States has consistently taken the position that the realignment 
in Okinawa is contingent on progress toward the Futenma 
Replacement Facility. Now, that replacement facility and the 
move have been delinked, is this the beginning of the Marine 
Corps moving away from the new facility in Okinawa?
    Ms. Pfannenstiel. Not at all. We are still moving towards 
the Marines having a presence, an operational presence on Guam. 
That is still our intention and discussions are ongoing.
    Mr. Bishop. Are you still committed to the relocation on 
Guam, as opposed to other locations like Australia?
    Ms. Pfannenstiel. We are looking at the entire Pacific 
posture in a lot of different areas. But Guam will be one place 
where we will move Marines, something fewer perhaps than we had 
originally thought. Probably fewer than 5,000 Marines, but we 
will still have a presence of Marines on Guam.
    Mr. Bishop. Okay. We haven't been able to confirm that from 
anybody in DoD. We have been getting all of the information 
from the Japanese press. We are trying to get some valid 
information from DoD.
    Ms. Pfannenstiel. Well, let me confirm that we are still 
intending to move Marines to Guam. It will be in the order of 
5,000 Marines.
    Mr. Bishop. But you said you would lower that number, which 
is what they have been reporting in the Japanese press, and 
possibly disperse them to other locations, like Australia, 
throughout the Pacific.
    Ms. Pfannenstiel. We have announced that there will be 
Marines moving to Australia. So it is really a question of 
Marines coming off of Okinawa and where in the Pacific in a 
number of different places where will they be? And those are 
decisions that we are making now, and then there are 
discussions going on with the Japanese Government about----
    Mr. Bishop. You don't have the plan finalized for the 
construction projects in the Pacific?
    Ms. Pfannenstiel. That is absolutely the case. Yes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Bishop.
    And, of course, if it was the considered judgment of the 
Congress that actually we needed that facility in Australia, we 
couldn't do that; could we?
    Right. We have got to fix that problem.
    Mr. Carter, I recognize my friend from Texas.
    Mr. Carter. Thank you, Mr. Chairman.
    Let's not pick on judges anymore today.
    Mr. Flake. Or earmarks.
    Mr. Carter. Secretary Hammack, General Odierno met with us 
a while back. In fact, it was last week. And he said the $3.6 
billion request for MILCON support is for our most critical 
needs. And I understand that. I understand the draw-down and 
what we have got to do. I am not especially happy about it. I 
worry about our end strength. But I certainly respect it. But 
is it prudent to ignore current MILCON needs in hope of a BRAC 
solution?
    And one of the things that you just said is--I think I 
picked it up. Maybe I missed it. I was listening for it. We 
haven't actually completed the 2005 BRAC yet, have we, 
completely?

                     ARMY BRAC AND BARRACKS PROGRAM

    Ms. Hammack. The Army has completed an '05 BRAC, yes.
    Mr. Carter. But the overall BRAC process for all the 
services is not complete. And I think someone said something 
about $100 million from the 2005 BRAC.
    Ms. Hammack. What is complete is the construction process 
and the moving of people. What is not complete in this BRAC 
round nor any of the other BRAC rounds is the closure.
    Mr. Carter. And that is the environmental impact that my 
friend, Mr. Farr, is always talking about in California.
    Ms. Hammack. Absolutely. That is the environmental cleanup 
that is residual from the prior BRAC rounds which had a much 
larger environmental cleanup bill associated with them than the 
BRAC 2005 round.
    Mr. Carter. Just remembering what my friend, Mr. Farr, has 
talked about, it is almost a never-ending story in some places, 
right?
    Ms. Hammack. It can be a challenge.
    We have a program to clean up. But, as you are cleaning up, 
you can find things that are unexpected that could change your 
cleanup plan.
    Mr. Carter. And, for me, this is a military construction 
committee. But it is really--when we are looking at the 
military, I view defense committee as the big picture 
warfighters and I view us as the people protectors.
    And at Fort Hood at least we have some of our barracks that 
are substandard and they don't meet the goals that we set for 
ourselves in housing our soldiers. So as these warfighters come 
back--and at Fort Hood at least we are in like our fifth or 
sixth deployment. For many of the troops at Fort Hood, I mean, 
these guys have done their job. And as they come back, some of 
them are becoming second-class citizens. Yet they have been 
promised these barracks are going to be----
    And it is not a big push, but it is something that I wonder 
if that is really prudent for the morale of our troops--these 
people have given us 10 years of their lives fighting these 
wars for us--to have them come back and still be in substandard 
housing.
    And is it actually a cost savings over the long run? 
Because it is my experience in the private sector, when I used 
to build things, every year they get more expensive. So if you 
don't build it this year, it is going to cost more next year. 
It is going to cost you more the next year after that. And 
unless something really strange happens, it never seems to drop 
down a whole lot. It just always seems to get more.
    Do you feel this is prudent? Because what you are really 
doing is passing the ball or allowing the ball to fumble from 
our current reduction to the BRAC process. The BRAC process 
doesn't always save us any money. Sometimes it costs us money. 
Would you argue with that?
    Ms. Hammack. I am going to let the BRAC process question be 
answered by my colleague, Dr. Robyn.

           BASE REALIGNMENT AND CLOSURE--MODERNIZING BARRACKS

    Mr. Carter. Dr. Robyn, that would be fine by me.
    Ms. Hammack. As it goes for barracks, we have two 
processes. One is new construction and the other is using our 
restoration and modernization. And many of our older barracks 
that have gone through the refurbishment we are finding our 
soldiers like better because we are taking a room that used to 
be designed for two people to live in it and it is being 
reconverted to a one-person room. So they have a little more 
space in the older barracks than they do in some of the newer 
ones.
    Mr. Carter. And we have some of those barracks.
    Ms. Hammack. Yes. So we do have a program to continue to 
restore and modernize our barracks.
    What we have delayed is some of the new construction, 
because we don't want to build excess capacity. So we have 
looked--and we call it racking and stacking and building a list 
of barracks projects, and we are fixing those that are in the 
worst condition--or replacing those that are in the worst 
condition first and working our way through.
    Mr. Carter. And I asked the question because I have talked 
to soldiers that come back from deployment, and they have said, 
I had better quarters in Baghdad than they got at Fort Hood. So 
I raised that issue for that reason.
    Ms. Robyn. Can I answer your question?
    Mr. Carter. Yes, ma'am. Please.
    Ms. Robyn. All BRAC rounds yield savings. The payback 
period is different. And in my opening statement I 
distinguished between the 2005 round and the previous four 
rounds. There is a lot of misunderstanding about that.
    The first four rounds focus, by design, on eliminating 
excess capacity and generating savings. The 2005 round was 
different, by design. You heard Katherine describe the Army 
transformation. That was why it was different. It was set out 
to be a BRAC round that was largely about transformation and 
largely Army. So the payback period on the 2005 round--with 
savings, $4 billion a year, but is longer than the payback 
period for the earlier BRAC rounds which paid back within 2 to 
3 years. For the 2005 round, we won't cross that line until 
2018.
    Mr. Carter. I hope so and that it is not just voodoo 
accounting. But I will take your word for it.
    I think my time is up, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Carter.
    I recognize the gentlelady from Minnesota, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I want to thank you all for being here today; and, as has 
been pointed out, thank you for your service to our country.
    Our drive to achieve energy security by decreasing our 
dependence on foreign oil is an issue Americans all agree on, 
and I know that it is part of the mission of the Department of 
Defense. You know, it even becomes more important--we have all 
watched gasoline prices go up, oil prices. We watch what 
happens with fuel oil in my part of the world. As oil is sold 
on an open market, it is supply and demand. It doesn't make any 
difference who generates it, who is pumping, who is refining 
it. It is supply and demand for the cost. So I think making a 
long-term investment in clean domestic energy makes a lot of 
sense for a lot of reasons.
    There was a Pew report on national security, energy, and 
climate; and it highlights the Department of Defense and the 
work that it is doing to increase spending on renewable energy 
investments by 300 percent between 2006 and 2009.
    The report also goes on to say that these investments will 
reach more than $10 billion annually by 2030. That is a lot of 
money. But there is a reason why you are going that way.
    So I probably won't have time to hear from everyone. So I 
would ask Secretary Hammack. Your leadership in this has been 
outstanding. And the Army is the largest energy user in the 
Federal Government. So when you make a difference, you make a 
difference for taxpayers in reducing energy costs and keeping 
things down lower as well as making our national security 
objective of using less foreign oil move forward.
    So, in your testimony, you discussed an Energy Initiatives 
Task Force and how it is going to make the Army a leader in the 
use of renewable energy. So I would like you to elaborate more 
little more on that.
    But I would also like you to point out to the committee how 
this is nothing new to the Obama administration, that this has 
been a decision that was taken by the Commander in Chief of a 
previous administration, the Pentagon seeing the need to do 
this because it is part of the Pentagon's mission. This isn't, 
you know, trying to be green or friendly. This is trying to be 
smart and efficient and a good use of the taxpayers' dollars. 
So could you maybe give us just a little bit of the history of 
how you have come to be here with the energy efficiency 
programs?
    And the other thing that I have seen in public entities, in 
our schools, they make the investment, they are recouping the 
dollars. So even though we are putting a lot of dollars in, if 
you have a cost-benefit analysis you could share with the 
committee, I would appreciate it.
    Thank you.

                     ENERGY INITIATIVES TASK FORCE

    Ms. Hammack. Certainly. Thank you for your comments.
    The Army has been working hard on this and for a long time.
    The Energy Initiatives Task Force was stood up to augment 
our garrison staff to help come up with large-scale energy 
projects, over 10 megawatts. We have come to the realization 
that that is something that is beyond the capability of a 
garrison staff who is focused on working with soldiers and 
families and providing them the quality of life and running the 
garrison. So installing and developing a large-scale, renewable 
energy project is beyond their capabilities.
    The Energy Initiatives Task Force currently has about 10 
projects that they are reviewing that could generate up to one 
gigawatt of energy. Currently, we are scoping the projects; and 
the intent is for those to go out to bid to the private sector 
using the authorities Congress has given us, enhanced use lease 
or power purchase arrangements so that we are not coming to 
Congress and asking you for the $7 billion investment that it 
would take to put the renewable energy project on the Army 
installations.
    We are going to the private sector. And it has got to make 
financial sense for the private sector. It has got to make 
financial sense for our Nation. It has to make good financial 
sense for the Army.
    These projects are going to give us more energy security by 
relying on natural resources. It is going to give us the 
ability to reduce risk and reduce vulnerability. It is going to 
also incentivize the private sector to invest in American-made 
alternative energy equipment, because it is going to have a 
requirement to comply with the Buy American Act.

                            ENERGY SECURITY

    So we have put out a multiple award task order contract for 
$7 billion. An RFP was released last week, and we are receiving 
responses right now. So it is a way of leveraging the 
authorities you have given us to do what is right for our 
Nation and to do what is right for energy security.
    Ms. McCollum. Mr. Chair, I think that this could be 
something that would be interesting to find out what more we 
can do with alternative energy and that. I am not anti-oil. Oil 
is going to be part of the mix, but it needs to be a part of 
the mix in a very smart way. So thank you for your work on this 
issue.
    Ms. Hammack. Thank you.
    Mr. Culberson. Thank you, Ms. McCollum.
    And, in particular, natural gas is a terrific option. The 
United States has got vast reserves of natural gas, and it can 
be burned safely and cleanly and basically in a way that, 
frankly, puts out almost more water vapor than anything else. 
So I would love you to see you guys move to more natural gas.
    Yes, ma'am? Did you want to comment?
    Ms. Robyn. I would like to say something by way of follow-
up.
    I think there is a lot of misunderstanding about why the 
Defense Department is putting up solar or raising wind 
turbines. Over the weekend, Washington, D.C., lost power to its 
911 system for a half hour. It was a Pepco issue, and the 
backup generator failed, and two other backup systems failed. 
So for 30 minutes over the weekend, Washington, D.C., did not 
have 911 service.
    We have that same concern about our military installations. 
They are 99 percent reliant on the commercial grid. Our backup 
system is generators and diesel fuel. We need to do better than 
that.
    Renewables doesn't get us there entirely. But that is the 
beginning. And if you combine that with storage and microgrid 
technology, that gives us the ability to continue critical 
operations for weeks or months at a time if the grid goes down. 
That is why we are doing renewable energy.
    Mr. Culberson. Thank you, ma'am.
    Mr. Carter. Would the gentleman yield for a question?
    Mr. Culberson. Sure.
    Mr. Carter. I have a question. I am concerned about what 
you just said. What do you envision this alternative energy--do 
you envision it to be at the established base level in the 
country? You don't envision erecting solar panels to power our 
soldiers in the field as they fight wars? Or you are certainly 
not going to put up wind towers. I mean, if you do, how will 
you keep the enemy from knowing where you are, if you are 
putting up a wind tower?
    Ms. Robyn. We are doing them both, for tactical reasons and 
on our installations. And the strategy is very different. And 
third-party financing refers to what we are doing on our 
installations. But I will let one of my service counterparts 
talk about what we are doing in theater.

                   ALTERNATE RENEWABLE ENERGY SOURCES

    Mr. Carter. I just don't understand. We actually have more 
wind towers in Texas than any State in the Union, and I can 
promise you that you can go to the plains of Texas and you can 
see a wind tower for 200 miles. And how are you going to keep 
the enemy from knowing where your troops are if your power 
source is going to be wind towers?
    Ms. Pfannenstiel. Well, we will move off of wind towers and 
talk about some of what we are doing with solar power, where 
the Marine Corps has found and developed a number of 
applications for solar power that they have actually brought 
into the theater, as has the Army.
    So a number of applications that are not about being green 
in any way--rather, they are being more effective in their 
warfighting. They have to carry fewer batteries, because they 
have these small solar arrays that charge the batteries.
    Mr. Carter. I can understand that. I can understand that. 
Small solar arrays like you can use to charge cell phones and 
things like that, radios, small radios.
    Ms. Pfannenstiel. But in a wide variety of different 
technologies that have become now more standard than they were 
even 5 years ago.
    Mr. Culberson. If I could--excuse me. We are going to lose 
Mr. Moran, who has to leave at 4:00; and Mr. Yoder graciously 
agreed to allow Mr. Moran to go first. We will circle back to 
this, Judge. I just wanted to make sure Jim had a chance to ask 
questions.
    I recognize my friend from Virginia.
    Mr. Moran. That is very thoughtful of you, Chairman; and I 
would be the first to recognize that it would be no big deal if 
you will lose me. But I do want to take the opportunity to say 
something nice.
    We could have had chaos in northern Virginia in terms of 
traffic congestion for 200,000 commuters due to a BRAC-related 
building. But we now have very thoughtful, responsible traffic 
management. And I want to thank you, Mr. Chairman, and Ranking 
Member Bishop and your excellent staff and particularly Mr. 
Washington and Ms. Hammack and particularly Dr. Robyn and her 
staff, John Conger, who used to work for the former chair of 
the committee, Mr. Edwards, and Colonel Troy Moore.
    Look, your team really made it happen. Oftentimes, our 
questions are critically oriented. All I can do is to heap 
praise upon you. And I am not sure all of my constituents 
realize what you did. But, boy, you saved the day. So thank you 
very much for that.

               ANTI-TERRORISM/FORCE PROTECTION STANDARDS

    I have only one other question, and it is not meant to be 
critical. But DoD has anti-force protection standards that are 
at variance with GSA. They are more expensive; and, in some 
cases, they are somewhat less rational. In some cases, it is as 
though because one building or agency is near an earthquake 
fault line every other building in the country has to meet the 
same standards to protect against an earthquake. We have got a 
lot of civilian agencies that might also be under attack, but 
GSA manages their force protection.
    So I wonder if you would just tell us for the record what 
you are doing to come more in line with GSA to exercise some 
judgment, to save some money, and to enable metropolitan areas 
like mine, Mr. Farr's, and probably others from having to--
really for not being able to compete when you have to have an 
82-foot setback from a sidewalk, you can't have parking 
underneath, you can't have any kind of public access, you can't 
be near a Metro station. Some of those things don't work in a 
metropolitan area. And I trust we are making progress in that 
area, Dr. Robyn?
    Ms. Robyn. I think we are. I don't want to pop the cork yet 
on the champagne. But our standards are not different just from 
GSA's. They are different from the entire rest of the Federal 
Government.
    Mr. Moran. Basically, the whole world.
    Ms. Robyn. Yes. The rest of the Federal Government uses 
interagency security committee, ISC, standards that were 
developed by a 21-agency group led by the Department of 
Homeland Security, updated in 2010. And they are sensibly risk-
based. So the standards for each building are based on the risk 
faced by that individual building, based on location, number of 
employees, symbolic value, critical missions.
    Our standards are different in that it is one-size-fits-
all. So for even buildings that are not high risk we require 
certain minimum standards. So we have been going through a 
fairly elaborate process within the Department, began with six 
very detailed case studies. What is the difference in outcome 
depending on whether you use IFC or DoD standards? We are 
letting the security folks have the final say. I think it is a 
good process.
    We focused initially on leased space. Once we make a 
decision on whether to adopt the IFC approach on leased space, 
we will then look at buildings on an installation. Right now, 
we treat a building in the middle of Fort Hood the same as a 
building in downtown D.C. We don't treat them differently in 
terms of their requirements. And it seems irrational.
    So I think it is an important area. The costs are 
significant, obviously. It is a policy judgment as well as a 
technical one. But I think we are making good progress.
    Mr. Moran. Thank you very much; and thank you, Mr. 
Chairman.
    Mr. Culberson. Certainly, Mr. Moran.
    I want to reiterate to all of you, if any member of this 
committee--frankly, any Member of Congress but particularly 
this subcommittee contacts you, they have a problem with a 
facility you are building, that request certainly is as though 
it is coming from me. Because each Member's district, they know 
them better than certainly any of us do. And I am really glad 
that worked out for Mr. Moran. Thank you for working with him. 
And, Jim, ride herd on it. Let us know what else we need to do.
    Mr. Moran. I really am appreciative.
    Mr. Culberson. Mr. Yoder from Kansas.
    Mr. Yoder. Thank you, Mr. Chairman.
    Thanks to all of you for being here today.
    This is certainly an important hearing as we deal with the 
critical component of our responsibilities to our Nation's 
military, the men and women in service, the facilities we 
utilize. This committee does some really important work and 
special work, and I am pleased to be part of it.
    It is also a time, as we determine how we are going to 
solve our national debt crisis, that we have to look at where 
we are reducing expenditures; and I want to commend all of you 
for the tough, tough work that goes into the BRAC decisions 
that are made and a lot of the heartbreak in communities when 
things change. You know, in many regards, the things you have 
done related to BRAC have been held up in State legislatures 
and local communities as models of how things can be done in a 
way that reduces expenditures. That is where we hope we can go.
    So as we are dealing with the importance of supporting our 
military men and women in service and reducing spending we are 
also looking on these committees on how we can help promote and 
support the private economy and job creation to get the economy 
rolling again. Ultimately those jobs fund the ability for us to 
fund our military. So it is all kind of intertwined.
    And I note a lot of the expenditures that we are 
encumbering related to our operations related to BRAC are 
mostly dedicated to environmental cleanup, surplus real 
property in preparation for transfer of titles to non-DOD 
entities. That certainly is a consumption of a lot of energy 
and time.
    We have such an area in Kansas called the Sunflower Army 
Ammunition Plant (AAP) you may be familiar with. Sunflower AAP 
is a BRAC managed commission that has had to endure 
environmental cleanup. And probably, in many cases, this is a 
situation where you have partnered with private industry and 
ultimately to transfer title as both sides work together to 
finance the cleanup. It is one of those great examples where 
public-private partnerships work, and our goal ultimately is to 
get places like Sunflower all across the country back into a 
situation where it can be put back into productivity. Homes, 
schools, parks, whatever that are planned for these areas, what 
a great thing when we can turn these into job-creating areas.
    So, knowing that that is all of our goal, I wanted to ask 
you some questions about how that has been going across the 
country. Certainly that has been a challenge locally.
    We have some challenges regarding the EPA. And when we get 
into agreements with private industry and we get into agreement 
with local communities to clean up sites based upon 
assumptions, Ms. Hammack, I think your statement was there are 
unforeseen challenges that occur later down the road. Some of 
these are unforeseen and some of them are challenges that are 
created because of an unexpected decision that a regulatory 
agency might make, not just a challenge but that was maybe 
unforeseen when something was uncovered but maybe a different 
regulatory approach. And we deal with this in the private 
sector, and the public sector is a sort of regulatory 
uncertainty.
    I am sure all of us here talk to small business owners. I 
just talked to a whole group of folks in wastewater treatment 
who mentioned specifically regulatory uncertainty from the EPA.
    So we are trying to do everything we can here to create 
regulatory certainty so that the economy can recover. This is 
an area where I think we need to work together to find a 
solution.
    I want to know, is this happening elsewhere in other areas 
of the country where later decisions by the EPA or other 
regulatory agencies are coming in to dramatically increase the 
expected cost of the cleanup, thereby making the public-private 
partnership and the financing of that essentially unworkable? 
And now the military branch is out of the resources that they 
had expected to pay, the private industry is out of the 
resources that they expected to pay, and, in many cases, we 
have an unusable plot of land that we have already put good 
money into.
    The question is, do we continue to throw good money after 
bad? Is this a prevalent problem across the country? What is 
the cost to taxpayers when these after-the-fact regulations 
come in, after agreements have been made? What can we do in 
Congress to combat this and how do we fix these particular 
situations?

                          ENVIRONMENTAL POLICY

    Ms. Hammack. Well, let me answer that question.
    First of all, is it a prevalent problem? We probably have a 
handful of these occurring right now where the regulatory rules 
have changed while we are in the process of cleanup. So we have 
a plan for a cleanup that is well under way. It is funded. It 
is planned. It is scheduled. And then there is a new set of 
regulations that are dropped in. And all of a sudden we have to 
go to a Plan B and completely change.
    We are also having issues where regulatory agencies are 
revisiting situations where environmental cleanup had been 
complete, had been closed out, and they want us to go backwards 
and revisit the problem.
    So the question is, how much of this reevaluation can you 
do? It would be great if when you started a project under one 
set of rules you were able to complete it under that same set 
of rules. I do not know if that is possible. And certainly from 
an environmental perspective, I think we discover new things 
every day or find things in our environment that are causing 
health hazards or other problems to the environment. I don't 
know if there is a solution.
    What is the cost to taxpayers? That is hard to determine. 
There is a cost to taxpayers when you are operating in an 
uncertain regulatory environment or the regulations change. We 
have gone in and followed the plan completely; the regulatory 
agencies have checked us every step along the way; and we get 
to the closing table, the closing desk, and they hand over a 
new set of regulations, which is essentially start over at the 
beginning. That is not good for the economy, that is not good 
for the taxpayer, and I question whether it is good for the 
environment at that point in time.
    With that, I will let Terry Yonkers comment.
    Mr. Yonkers. You read my mind.
    First of all, the Environmental Protection Agency (EPA) has 
done some unbelievable and miraculous things and so have the 
State agencies that regulate air and water and hazardous waste.
    In my mind and building on what Katherine is talking about, 
there are a couple of things that have kind of gotten out of 
balance here.
    First of all, the processes that we follow are tremendously 
complex and elaborate, and they don't necessarily lead you to a 
quick decision, and it is more of an art than it is a science. 
As Katherine is articulating, you may find out that you think 
you have got a site, a groundwater tetrachloroethylene (TCE) 
plume or something pretty well characterized, only to find that 
when you put in another well somewhere or somebody starts 
looking at the water that you are drinking that you have got 
TCE in the water. So you have to deal with it. So site 
characterization is also a problem.
    But I think one of the things that we are seeing here--and 
it is going to have a fairly substantial impact, I think--are 
the changing of the standards. So, for example, the EPA right 
now is contemplating a change in the TCE standard from five 
parts per billion to one part per billion. If that happens, 
there is going to be a substantial cost growth in our 
environmental clean-up programs.
    Our guys, back of the napkin, looks like $2 or $3 billion. 
We have already spent $25 billion in our environmental cleanup 
program to date. So where it will go--and it is frustrating 
that, if we had a set of rules that we could count on and move 
towards that end point, we could get there faster with greater 
certainty.
    Mr. Yoder. Well, I certainly appreciate your comments. And 
I appreciate--it seems like the combined frustration many of us 
feel.
    Mr. Chairman, these are examples of our own--we deal often 
in our communities with complaints about regulatory agencies 
making it hard for our small businesses to create jobs. This is 
an example of one hand of the Federal Government driving up the 
cost of another area of the Federal Government which comes back 
to this committee that we have to pay for.
    So we have land around the country that could be put into a 
usable format, put people to work, build houses, put on the tax 
rolls, growing the economy, that we have after-the-fact 
regulations coming in that essentially make it impossible for 
these folks to plan. They are partnered with private businesses 
to clean up the sites in an agreement that costs will be 
covered in a certain way, that now there is a whole new cost 
factor that nobody knew about when they went into the site. The 
site hasn't changed. The regulations have changed. Or someone 
has come in later and said, hey, we should have brought this 
up.
    So, ultimately, this affects our national debt; it affects 
the ability for these folks to get their job done in a timely 
fashion; and it affects the economy because we can't get these 
pieces of property back in a usable form.
    So I am frustrated. I think that this is something that 
ought to be of paramount importance for Congress to look at. It 
is just useful for me to know this is a common challenge and 
one that we need to get ahold of here in Congress.
    Ms. Hammack. I might want to add that we are in dialogue 
with the EPA, voicing our concerns very loudly. And, as a 
matter of fact, tomorrow I have several EPA regulators coming 
in and it is joint with the Air Force because we are seeing 
some of the same challenges on particular environmental site.
    Mr. Yoder. Well, let's work together to try to fix this.
    Ms. Hammack. Okay. Thank you.
    Mr. Yoder. Thank you, Mr. Chairman.
    Mr. Culberson. That is really interesting. I was just 
double-checking with Sarah to find out if we could do anything 
in our bill specific to that facility, and we cannot because of 
the earmark ban. Something we have to fix.
    A public works project that--you have obviously identified 
a sound policy reason. There is a real problem here. With the 
EPA, like you said, the left hand doesn't know what the right 
hand is doing. Another great example of why we have really got 
to fix this, so we can do public works projects, transparent, 
no conflicts of interest, don't increase spending.
    I am just on a tear this week because I am so upset about 
the Army Corps of Engineers, about what I have discovered with 
the Air Force and these incredible facilities. We have great 
opportunities dropped in our lap, and we can't make a policy 
decision to move things up on the list. We can't help your deal 
in Kansas, either. So, hopefully, we will work on that 
together.
    Mr. Farr, my good friend from California.
    Mr. Farr. Thank you, Mr. Chairman.
    I have been on this committee longer than anybody, I think 
12 years now. I have been through this. Frankly, it is really 
difficult to change these regulations. A lot of them are 
Congress-driven.
    What I did was created what we call the smart team, where 
we got all the regulators in one room and they went out and 
looked at the site and there on the spot decided what was going 
to be done. So once you had that plan, it didn't take a lot of 
meetings. And then you release that plan, and then you have got 
everybody saying essentially, if you do this, it is a green 
light, and we can give you the permits. And I think that is a 
faster way to get it done than trying to rewrite the 
regulations. But I think we need to keep pushing on it.
    Mr. Chairman, I know how much you and I love our daughters 
and appreciate them; and I would just like for you to know that 
this is National Women's History Month. And today we see 
history in this committee. Never before has there been three 
women in such powerful positions, and I congratulate you and 
congratulate the President for making wise decisions in putting 
you in those positions.
    Mr. Culberson. Of course, every smart man knows that women 
actually run the world anyway.
    Mr. Farr. Well, our daughters run our lives.
    Mr. Culberson. Isn't that the truth.
    Mr. Farr. I would also note that every one of you have the 
word ``environment'' in your titles. Three of you have the word 
``energy.'' We have had a lot of discussions here about the 
environment and energy.
    And I want to drill down. I think I have been through more 
BRAC issues than any Member of Congress, the biggest base ever 
closed, most issues of cleanup, every single thing you can 
imagine. We are not very far along, and that closure happened 
in 1993.
    The only probably good thing about it was that it trained 
our new Secretary of Defense, who was my predecessor, about 
base closure. Because you will hear him talk about Fort Ord, 
and he handed it off to me.
    I want to just say a couple of things. One, on the 
cleanup--and this is the testimony, and I am quoting Leon last 
week before the Budget Committee. Mr. Blumenauer was asking 
questions, and his response was, ``Well, frankly, the only way 
to ultimately achieve savings when you do BRAC rounds is to be 
able to have the cleanup and do it expeditiously so communities 
can reuse the property and not be stuck with holding a property 
that can't be reused.''
    The problem is, it is the last thing you want to do. That 
mission statement of what your responsibilities are does not 
talk about environmental cleanup. It talks about preparing 
warfighters and providing lift and getting to theater and be 
trained. So what happens is, in the budget priorities, it is 
the last one.
    And I would like to compliment you. At least you got a 
little bit more money in this year for BRAC.
    But I am also a little bit worried by what I see and hear 
in this committee. It sounds like you are approaching this 
sequestration process by pre-doing BRAC. We will just take the 
FYDP list and we will implement it.
    I mean, first of all, we have to decide whether we are 
going to do BRAC, not you, not the Department. If we are going 
to do BRAC, then your responsibility is to make recommendations 
to the President as to what ought to be in the Commission, as 
to what ought to be closed, realigned, or reinvested in. And it 
seems that you are delaying the FYDP list.
    I mean, I am very upset about that. Because, frankly, you 
know, you have delayed a barracks projects at the DLI. You are 
not going to close the Defense Language Institute. It is just 
not going to happen. I went there before and learned all the 
reasons why it shouldn't happen, and that was before we even 
realized how important languages were.
    So I am concerned that you are administratively doing a 
pre-BRAC before Congress has even gotten around to it, and I 
resent that.
    And I want to ask my friend, Dr. Robyn, I think you are one 
of the outstanding human beings in public service. You really 
spent a life committing to a really professional group. But I 
want to know, because you have the ability to do this, do you 
intend to re-evaluate the manner in which we use the BRAC 
process--the COBRA model? Is that going to be used again?

                      BASE REALIGNMENT AND CLOSURE

    I mean, the problem with the COBRA model, one, there is no 
transparency. It is totally subjective. It is just numbers. It 
can't put any value. And that is what has happened in the past 
when the Commission--for example, the Defense Language 
Institute, the suggestion that we just move it. And I guess the 
COBRA model said, yeah, you are going to save money.
    But when you have found that none of the faculty would 
move, and you found that there was no capacity to taking it 
in--it wasn't the water. It wasn't the infrastructure. It was 
all these things that aren't measured in the COBRA model. And 
it seems to me that why we get into so much trouble in that 
process is because we realign this damn procedure to just think 
that a computer can tell us the best judgment.
    Now perhaps there is merit in having some of that. But to 
using it so strongly and defending it I think is all wrong. So 
I want to know if you are going to continue to use that. In 
fact, I asked that last week in the hearing with Comptroller 
Robert Hale, and he said to ask you when you got here. So I 
hope he told you you were going to be hit with this.
    Ms. Robyn. Let me respond first to your point about doing a 
pre-BRAC.
    We are in a very constrained budget environment. We have to 
cut $259 billion over the FYDP. And if you look historically, 
MILCON drops disproportionately when there are cuts in the 
defense budget.
    We are taking cuts in force structure. We are reducing 
force structure. Given that, it makes sense to pause to look 
and see how those force-structure cuts are going to play out 
before we embark on a lot of new MILCON.
    Now force structure is the major reason we are asking for 
more BRAC rounds. There are going to be cuts, and we want to 
cut the tail as well as tooth.We are not holding back on MILCON 
waiting for BRAC. We are waiting to see how the force structure 
cuts play out.
    You probably know more about COBRA than I do. I think--it 
is a tool for comparing alternatives. The major criticism is 
that the number that it generates for what BRAC is going to 
cost is not a budget quality number, and people tend to treat 
it that way. It is merely a tool for comparing alternatives.
    I have been reading all the back GAO reports on BRAC, and 
they defend it. They say it is a reasonable approach, which is 
about as positive as GAO gets.
    Mr. Farr. My concern isn't that you don't use it as part of 
your tool in your BRAC decisions. I think it is too heavily 
relied on. Because what you miss in that is all the--and they 
are. It is difficult to measure the quality of----
    For example, you know, we have put together--because I have 
been through all this BRAC, of how to get smart--this Team 
Monterey. None of the services knew what the others were doing. 
These are all services in Monterey County. I am going to give 
you all a brochure.
    This is remarkable. I have seen more reform in that county. 
We had no idea that they were all there. We had no idea all the 
capacity they had. And when all of the heads of all the 
missions got a room, they couldn't believe it. They said, you 
have it here next door? We have been trying to get access to 
that for years. We just did a whole changeover on the computer 
thing for DLI. It would have cost millions of dollars. It was 
all in-house. We are just borrowing the talent that was----
    And if you did this in every county in the United States--
--
    Ms. Robyn. I have asked OEA to replicate that other places. 
It is a model.
    Mr. Farr. And what is happening now, it is now becoming a 
recruiting tool. So instead of just downsizing--I mean, a 
recruiting tool for the private sector. They are moving in and 
saying, my God, you have all these assets here. We want to be 
next to you.
    So I think you have to put this kind of a value into your 
assessment as to how we are going to close and where we are 
going to move people and----
    Ms. Robyn. The key thing or the criteria--and those are set 
out in statute. Four of them have to do with military value, 
including the cost of operations. And four of them have to do 
with things other than military value.
    I think there is a tension between trying to make the 
process transparent and auditable, for which you want to use 
some sort of a tool like COBRA. And then, on the other hand, 
you want to take into account a lot of things which don't 
reduce well to numbers. So I think there is a tension there.
    But I think the key are the criteria, and we put forth the 
same criteria that Congress modified last year. You haven't 
gotten the bill yet, but you will get it soon. And maybe that 
is something worth looking at.
    Mr. Farr. We will look forward to that. I am going to be 
working on it.
    I am going to ask two other questions, one about cleanup 
and one about energy.

                                CLEANUP

    Having stated what you have heard in this room and what the 
Secretary said, it warrants that we put some more money into 
cleanup now. You can't shortchange cleanup on the eve of asking 
Congress for another BRAC round. Because every one of us who 
have been shortchanged in cleanup are going to say, hell, no, 
don't do another BRAC round. Make sure they spend money on it 
right.
    You are coming in--I don't know what it was, $26 million 
more this year than last year. I mean, thank you for doing 
that, because it is the first time we have had an increase. But 
$26 million for--it is embarrassing.
    And you have communities like, you know, Fort Ord and 
28,000 acres that still has a significant amount of land to be 
cleaned up. It has cost $100 million to do it because we have 
waited so long. We had to go through all of these regulatory 
processes. But it is not cleaned. And that base was closed in 
1993. So, 20 years later, we are not there yet.
    And that is the kind of message that I think I have heard 
from a lot of my other colleagues, where you had the smart 
team, where they got in there. Of course, the smart team didn't 
do it, UXOs. It had to do with all the other kinds of cleanups. 
But if we put UXOs and all the other kind of cleanups together 
and figure out what the real cost is and start asking for that 
money, that is the way you are going to build some credibility 
for BRAC. But without it----
    Ms. Robyn. I think that is a fair point.
    Mr. Farr. And I really want you to figure out how we can 
get some more money for that account.
    Sitting behind me is my staff, Rochelle Dornatt, and she is 
the world expert on unexploded ordnances. We even created a 
caucus here in Congress, and we are trying to make sure that we 
can do this in a modern way.

                        ENVIRONMENTAL TECHNOLOGY

    Ms. Robyn. Congressman Farr, you weren't here for my 
opening statement. But I did talk about our terrific new UXO 
technology which I think will allow us to save billions of 
dollars in UXO cleanup, which means we will be able to do UXO 
cleanup faster.
    Mr. Farr. Well, I have suggested to the Naval Postgraduate 
School--because we have such a big cleanup at Fort Ord, which 
is right next door, that they actually implement a course in 
UXO technology, in cleanup, because that is where they are 
trying it all out. It is amazing.
    Ms. Robyn. That is a good idea.
    Well, the gentleman who runs the SERDP/ESTCP program, Dr. 
Jeff Marqusee, is at the Naval Postgraduate School this week 
talking about some other stuff. But that is a good conversation 
to have.
    Mr. Farr. Well, they are looking at how to come up with an 
academic curriculum that could warrant academic credits.
    Let me close with Katherine Hammack and a couple of issues.
    In discovering the assets in our district--we discovered. 
We knew about them. I knew about them, but they didn't know 
about them--is two properties. One is Fort Hunter Liggett, 
which is now under the command of the Army Reserve. It is the 
largest Army Reserve installation in the United States. And 
next door to it is Camp Roberts under the command of the 
National Guard. Obviously, these aren't the first people you 
speak to. But that Camp Roberts is the largest west coast 
training facility.
    Between them, it is over 205,000 acres. I mean, if you look 
at military properties, training properties--that has got to 
rank right up there near the top. They are right next to each 
other. Now they are starting to talk to each other.
    And I have a couple of issues there. One is that--I think 
that Camp Roberts, which is probably the most forgotten base--
and that is probably why we gave it to the National Guard. But 
SATCOM is right in the middle of it. And SATCOM is there 
because that is a geophysical spot. You are not going to move 
that or close that. It is going to be there. To have secured 
communications around the world, you are going to need that 
relay station. It is right in the middle of Camp Roberts.
    What we are doing is trying to improve Camp Roberts so it 
can serve the needs of SATCOM. Because there is no meals. There 
is nothing--these bases are both in the middle of nowhere.
    You have really used Fort Hunter Liggett Army Reserve as a 
test site for your new energy initiative, and I thank you for 
that. I think you ought to use Camp Roberts, which is right 
next door, as kind of just a skunkworks of energy savings. 
Because it is weather perfect for you. It is very accessible, 
even though--there is a freeway going right through it, even in 
the middle of nowhere.
    But I think if the Army and the Defense Department is 
really going to get into these savings--and Ms. McCollum stated 
it really well, about being the biggest cost to you is energy 
costs. In the Air Force, I know it is just huge. When the price 
of gasoline goes up, it is just outrageous.
    So, I mean, a 1 cent increase in aviation fuel is billions 
of dollars to United Airlines. I don't know what it is to the 
Air Force, but you are bigger than United Airlines so it has 
got to be huge.
    We have got to find these--we ought to be the leader. 
Because, frankly, the military has the ability to do it, kind 
of your command system to make these decisions. If you do it, 
everybody else will follow.
    I used to be really critical of the Navy about being 
environmentally sensitive, ships and paint and all that, 
because of my keen interest in the ocean. And I always said, 
well, you know, the Navy ought to follow what the private 
sector does. We got into this, and the Navy was leading the 
private sector. All of the shipping industry was coming around 
saying, what are you doing?
    You were the first ones to recycle, to make sure that your 
waters weren't contaminated. You weren't dumping spoils into 
the ocean and the nonfiling paint and all that other stuff. It 
is fantastic.
    So I think that on your energy areas you can be the leader, 
all of you, for it; and I am just suggesting there is a trial 
site.
    And the last thing on Fort Hunter Liggett, we are in a bind 
because you, the Army, BRAC'd that property. And miraculously, 
several years later, just snuck back and unBRAC'd it, which I 
still haven't figured out how you did that.
    But, in BRAC'ing it, there is a piece of property way 
outside the cantonment area. It is not used, but it is under 
your title. And on top of it is one of the most historic 
buildings in California, an old, old hotel that was used in the 
1800s, and it is on the National Register of Historical Places. 
It is owned by the County of Monterey. You own one acre under 
that property, and it has taken us a decade to figure out how 
to transfer that one acre to Monterey County who can put it to 
some economic use.
    Everything we want to do is fine with the command at Fort 
Hunter Liggett. Can you make this happen? It is just nuts. The 
amount of money they wanted to charge to do appraisals, to do 
economic--the value of land has got to be nothing, because you 
don't own the building. And it is in the middle of nowhere, and 
it is not zoned for commercial. If it hadn't been a historic 
property, it wouldn't be there. So one acre. My God. Make it 
happen.

                             LAND TRANSFER

    Ms. Hammack. And I know you met with the Reserves 
yesterday. My apologies I couldn't attend. But it is something 
that we are looking at to see what we can do, and I think there 
are several options on the table that we are investigating. But 
I will follow up with you on that. Because I agree with you, 
that it is something that we can make happen. We have just got 
to figure out what the restrictions are in transfer of land and 
the restrictions----
    Mr. Farr. I have been through all of those. You have 
transferred--Dr. Robyn knows at Fort Ord you transferred about 
18,000 acres without cost, free. Whole cities, whole 
communities without a cost. There is no reason you can't 
transfer one acre of land that you don't own the building on.
    Mr. Culberson. I want to stress, my good friend, you have 
got my full support on this. And I hope you will do more than 
just look into it. Get back to him. Because it just makes good 
sense. Each one of us knows our districts better than anybody 
else. It is a good suggestion. And, as with Mr. Moran, I want 
you to know Mr. Farr has my full support in this.
    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Culberson. I hope you will do more than just look at 
it. Can you give him a little more assurance than just look at 
it?
    Ms. Hammack. I can tell him he has my full support to 
evaluate options and get back to him.
    Mr. Culberson. Let us know how I can help. Thank you very 
much.
    Mr. Farr. It is a good thing we have the control of your 
budget in our hands.
    Mr. Culberson. That is an important thing to remember as we 
deal with this.
    Mr. Nunnelee, thank you for your patience. I recognize my 
good friend from Mississippi.

  MILITARY CONSTRUCTION COSTS ASSOCIATED WITH FORCE STRUCTURE CHANGES

    Mr. Nunnelee. Thank you, Mr. Chairman.
    Mr. Yonkers, the Air Force released the 2013 force 
structure. Are you going to be releasing any data relating to 
military construction costs associated with force structure 
changes?
    Mr. Yonkers. Sir, we really don't have that many in the 
budget. When we sort of noodled through all of this stuff, we 
looked at some of these things. There were some things that 
were early to need. For example, with the Joint Strike Fighter 
and with the KC-46 and you know those aircraft have slowed down 
a little bit. So we pushed some of those military construction 
projects out of the 2013 into the 2014 and 2015. We canceled 
some of them like the C-27 that, when we made the announcement 
on force structure, we no longer needed the facility upgrades 
that we had planned.
    So, I mean, we could go through and let you know 
specifically, sir, what has changed, but there really hasn't 
been too much change in the 2013 program with regards to that.
    Mr. Nunnelee. Well, what I am really looking for is an 
assurance that the Air Force, if you do make force structure 
movements and you are moving aircraft from one site to another, 
that you are going to take into account military construction 
projects at the receiving site that may be required in order to 
complete the force structure change.
    Mr. Yonkers. We will, absolutely. And we know the 
sensitivity of not only this subcommittee but every other 
committee in terms of the cost of doing business. And so our 
paramount criteria, anytime we look at a new basing, cost is 
right up there next to military value and operations.
    Mr. Nunnelee. And I will just ask you to report back to 
this committee on that issue if it becomes an issue.
    Mr. Yonkers. Yes, sir.
    Mr. Nunnelee. That is all I have, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Nunnelee.
    I really appreciate you all taking the time to spend all 
this time with us here this afternoon.
    And I did have a specific question that really affects the 
Gulf Coast that I would like to ask you about, if I could, 
Secretary Yonkers. I have got a little more clarification on 
the question that you and I discussed, the movement of the C-
130s out of Fort Worth. I want to stress in the most emphatic 
terms possible that I am strongly opposed to that move. I want 
to make sure that the Air Force is not using any--because that 
is apparently under way.
    There is apparently, from the information I have got, a 
plan that those airplanes will be moved out of Fort Worth by 
October 1, 2013, that we may see that in next year's MILCON 
proposal. I just want to make sure that the Air Force is not 
going to use any money out of the 2012 MILCON appropriation 
bill to do anything, either to enlarge hangars, either in 
Montana, or do anything to move those airplanes.
    Mr. Yonkers. Sir, right now, there was a wedge, put into 
the 2013 program to look at what it might cost to move the C-
130 Hs out of naval Air Station Joint Reserve Base Fort Worth 
Texas to Great Falls in Montana. Corollary to that are the MC-
12s that would come to Fort Worth. That is a great mission, 
more aircraft.
    And, actually, as I talk to Lieutenant General Henry M. 
Wyatt III, who is the director of the Air Guard about this, 
based on our conversation recently, a mission set that had 
already existed there at NAS JRB Ft Worth. So the Air National 
Guard had RC-26s, which were another civilian platform----
    Mr. Culberson. These are intelligence-gathering assets, 
electronic, other types of intelligence-gathering aircraft?
    Mr. Yonkers. They are very similar to the MC-12s. Yes, sir.
    And they are support of Customs and Border Protection. That 
is a primary mission, as Customs and Border Protection asked 
for that assistance. But it is also a mission that supports 
deployed forces when we go to war, and that Intelligence 
Surveillance and Reconnaissance (ISR) platform is a critical 
asset.
    Mr. Culberson. Yes, sir. I understand.
    I want to stress in as strong as possible terms our 
strenuous opposition and my determination to make sure that we 
block the move of those planes.
    I want to submit for the record a letter from the Governor 
of Mississippi, joining with the Governor of Texas, the 
Governor of Louisiana--I have never even seen letterhead like 
that before--the Governor of Alabama and the Governor of 
Florida, all unanimously asking the President and this Congress 
not to move the aircraft out of Fort Worth because of their 
essential role in disaster relief.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5969A.093
    
    [GRAPHIC] [TIFF OMITTED] T5969A.094
    
                          EMERGENCY ASSISTANCE

    Mr. Culberson. We had a whole slew of hurricanes here over 
the last several years, and those C-130s were vital in flying 
supplies. You got hammered in Mississippi, in Gulfport; and 
these C-130s were vital in flying in food and supplies to 
people in Mississippi, the people of Louisiana, Texas, and the 
Florida Panhandle and Alabama.
    We all suffer from--and for some reason this year, we just 
didn't get hit as bad as we did before. So would you assure us 
that there is not going to be--none of the money. I want to 
make sure. And also Kay Granger is going to be taking care of 
it on the other end in her subcommittee.
    Mr. Yonkers. We will lock it down for you, sir. To my 
knowledge, there is nothing in the 2012 program.
    Mr. Culberson. And we want to make sure they are not moved. 
You will help us make sure of that so we don't have to do it in 
our bill?
    Mr. Yonkers. Sir, if I could respond to your concern with 
regards to emergency assistance. There is an agreement amongst 
the Governors of almost every State called an EMAC. It is an 
Emergency Management Assistance Compact that allows that 
Governor to pull up any asset from any State that has a C-130 
to provide support to a Governor of another State. It is a 
paperwork exercise that takes only a few days to consummate.
    There is also under the Defense National Authorization Act 
last year that you all had a hand in the same wherewithal to 
call up both Reserve and Active Duty assets.
    So when the question was asked whether or not we have 
enough C-130 lift or other kinds of assets to respond to 
natural disasters, the answer is, by all means, we do.
    Mr. Culberson. Where are those C-130s?
    Mr. Yonkers. There are some in Dyess, and there are some 
throughout.
    Mr. Culberson. Dyess is in Abilene?
    Mr. Yonkers. Dyess is in Abilene. We have C-130s in the 
Active Duty, in the Air Force Reserve, and the Air National 
Guard, all over the 50 States.

                            CHARTER SCHOOLS

    Mr. Culberson. Well, I look forward to working with you to 
make sure we don't move those aircraft. Thank you.
    And let me ask about a subject that is near and dear to my 
heart. I didn't get a chance to ask--I did get to mention DoD 
schools and charter schools to you, Ms. Hammack, and you, Mr. 
Yonkers, when we met. But I really want you to please follow 
up. I know that the Air Force has one at Andrews, but you 
mentioned there were none in the Army, to your knowledge.
    The people of Fort Hood do a great job of supporting those 
men and women at Fort Hood. Great local schools there, Judge. I 
understand they really do a good job. That may not be true in 
other parts of the country.
    What can you do, Ms. Hammack, and also on behalf of the 
Navy can be done, what could this committee do to help 
encourage the creation of charter schools as needed on bases 
around the country where enlisted personnel feel like they need 
them?

                                SCHOOLS

    Ms. Pfannenstiel. I think we would ask that Dr. Robyn 
respond for the DoD. I think that it is something that goes 
across all services.
    Mr. Culberson. It really does. Thank you, ma'am.
    Ms. Robyn. I didn't realize until we got together to 
prepare for this hearing that DoD had charter schools. Two of 
the Air Force charter schools are a product of housing 
privatization. So the housing privatization partner I think 
worked to create them.
    I like that model myself. It really is a P&R decision, 
Personnel and Readiness, within the Office of the Secretary of 
Defense, rather than an installations issue. But I would like 
to take it up with them.
    Mr. Culberson. Thank you.
    I bring it up because I gather from everything that I have 
seen and heard that you already have the authority to do this, 
that where there is a State law authorizing charter schools and 
an interstate compact exists that would allow for the grades to 
be transferred--because, obviously, that is important with a 
mobile population of servicemen and women. You have already got 
the authority to do it. So I bring it to your attention to 
help, if I could, encourage you to do so.
    There are none on any Army base. I don't know whether there 
is any on----
    Ms. Pfannenstiel. We were actually looking at some--at 
least in one instance that I know of right now on a Navy 
installation. I don't know of any others.
    Mr. Culberson. And if it weren't for the one at Andrews, 
those men and women that are stationed there would really be in 
trouble. Because the local schools are just not really very 
good, and it is a real problem. And I am grateful for the Air 
Force having done it.
    Mr. Yonkers. We actually have four, sir, one of them at 
Vandenberg, Little Rock, and Davis-Monthan Air Force Base, and 
Joint Base Andrews. And, as Dr. Robyn mentioned, two of those 
were at the generosity of the developers that are building our 
military family housing. And one of the reasons they are doing 
it is, if they keep quality schools and quality education right 
there on the installation, they will have a high occupancy 
rate, and that is cash flow for them.
    So the thing that sort of occurs to me is that as we think 
through these other housing privatization deals that we are 
about ready to finalize, maybe there is another opportunity.
    But we are also finding that in some places that the school 
systems are good enough and they are not something that our 
military members and families are particularly concerned about. 
So it is not a one-size-fits-all.
    Mr. Culberson. Well, I would particularly appreciate it, 
Dr. Robyn, if you would make this a priority. Obviously, it is 
important to all of us on this committee in the work that you 
do to ensure that the men and women in uniform have a high 
quality of life, they have peace of mind, and they have to 
worry as little as possible about their home life.
    There is nothing more important to any of us who have 
children than the quality of our kids' education. And if you 
would please make this a priority, in addition to the charter 
schools, also the DoD schools, as needed.
    Certainly the committee has been very supportive. We have 
funded the request that you have sent to us for the improvement 
of DoD schools or simply to build new ones. It is a real 
problem. I know, for example, at Fort Bliss, they really have 
got a problem out there.
    Let me, if I could, ask a question, and we will submit most 
of these for the record.

                           NATIONAL SECURITY

    But, for all of you, circling back to what I opened with, 
and it is a real source of concern for me that the requests 
that are being submitted at Chairman Young's subcommittee and 
certainly to this subcommittee--I am just concerned--it may be 
a reflection more of what you think can be afforded rather than 
the mission requirement that faces the Nation in terms of 
national security and what threat you see over the horizon and 
the threat right in front of us, particularly with what is 
going on in the Middle East and I think the imminent and very 
real possibility that the Israelis are going to have to take 
out the Iranian nuclear reactor.
    And I expect and hope--would expect the Commander in Chief 
to support the Israelis 110 percent if they have to do so. They 
are our best friend in the world, and they have an absolute 
right to defend themselves and to do so preemptively, as 
President Bush saw the need to.
    The Israelis really have a need to do so with the Iranians 
who have promised that they will use a weapon as soon as they 
get it, and they will use it on Tel Aviv. And that is going to 
trigger a whole string of events. So we have got a whole 
variety of threats.
    And I am just concerned, as Senator Levin was in his 
comments--as I said at the beginning that it is his impression, 
certainly my impression, it is a concern of a lot of my 
colleagues that the budgets we are seeing, the draw-down in 
forces we are seeing--
    For example, there is no new MILCON that the Air Force is 
proposing. You know, we see a significant draw-down in the 
Army's MILCON. Talk to us a little bit about, for example, 
specifically, as DoD has been asked by OMB--and, obviously, we 
have got the deal with the sequestration. But the DoD has been 
asked to reduce the defense budget by about $450 billion over a 
10-year period. And, as I mentioned, we have already seen a 
real trend of reducing significant MILCON budget reductions 
from the services.

                             RISKS OF CUTS

    Where do you see the most risk? If I could ask each one of 
you to talk to us about the risks of cuts of that magnitude, of 
reductions in your military construction requirements and 
reductions in facilities, sustainment, restoration, and 
maintenance? Where do each one of you see the risks associated 
with those draw-downs of that magnitude?
    Mr. Farr. Mr. Chairman, just remember that we ordered these 
risks. We put them into statutory law.
    Mr. Culberson. Right.
    Mr. Farr. We didn't order any specifics. We just ordered 
the cuts.
    Mr. Culberson. Right. With the sequestration in particular, 
right. All of us need to get our arms around the scale of the 
problem that the sequestration creates for the Defense 
Department and what that does to our Nation's security around 
the world. So that is why I wanted to ask you to talk to us a 
little bit about the risk associated with the $450 billion 
reduction over a 10-year period.

                          SEQUESTRATION IMPACT

    Ms. Hammack. The budget that you have in front of you for 
fiscal year 2013 MILCON does not take into account 
sequestration. We would have to completely redo our fiscal year 
2013 budgets if we were subject to sequestration. It would have 
a dramatic impact and subject us to dramatic risk to readiness 
and responsiveness if we had to take into account 
sequestration.
    Mr. Culberson. Help us understand what that risk looks 
like. That is why I am asking the question.
    What do you envision would happen in that scenario so we 
can help talk to our colleagues, our constituents in the 
Nation. Hey, we had better pay attention to the mandatory 
spending side, guys. Medicare, Medicaid, that is what is 
killing us. Social Security. We have got to obviously save 
money in the Pentagon. But cuts of this magnitude mean x. What 
does x look like?
    Ms. Hammack. We would have to significantly reduce our 
manpower in order to account for a budget under sequestration, 
and that would have a dramatic impact on the bases.
    Mr. Culberson. Could you quantify ``significant'' and 
``dramatic'' to the best of your ability?
    Ms. Hammack. Right now, General Odierno said it would take 
another 100,000 soldiers out of the Army. That is what he 
envisions the risk would be. If we took another 100,000 
soldiers out of the Army on top of the 80,000 that we are 
taking right now, that would require us to close bases, lay off 
civilians, and take dramatic cuts to MILCON, SRM, and any other 
budget that we have right now.
    Mr. Culberson. So another 100,000 beyond the 80,000. What 
kind of reductions does that mean to California, to Texas, to 
our colleagues around the country? How many bases? Is there any 
way to just----
    Ms. Hammack. Sir, I would say everybody would equally feel 
the pain.
    Mr. Culberson. Do you know what that means at Fort Hood, 
Judge?
    Mr. Carter. I don't think anybody has given a directed spot 
at your post right now.
    There is another issue on sequestration that I think these 
Secretaries will agree. They have all got ongoing contracts, 
and there is going to have to be an 8 percent cut in every 
contract, which means every contract that is ongoing has got to 
be renegotiated. It is a nightmare at that level, because it is 
basically--you have got to rework everything you are doing in 
every one of these services. That, and coupled with, in the 
Army, which their biggest asset is soldiers, 100,000 soldiers 
is a whole lot of folks.
    Mr. Culberson. This is very helpful. So about a 100,000 
reduction beyond the 80,000 for the Army.
    Any other way? Any other information?
    Ms. Hammack. That is what General Odierno projected and 
testified in one of his posture hearings. I can't even remember 
which one at this point in time. So those are not my numbers.
    If I were told that I had to account in installation 
budgets for a reduction of another 100,000, the only thing I 
can say at this point in time is that every installation would 
equally feel the pain. It would be another huge round of BRAC.

                         SEQUESTRATION IMPACTS

    Mr. Culberson. Could I ask the Navy, what would that mean 
to the Navy, Marine Corps----
    Ms. Pfannestiel. We have not done the strategic analysis 
that would be necessary. The budget that you have before you is 
based on our analysis of meeting our military mission at the 
level that we believe it needs to make. It has some risks, the 
fiscal year 2013 budget has some risks, but largely they are in 
sustainment, not so much in the----
    Mr. Culberson. Sure.
    Ms. Pfannestiel [continuing]. In the MILCON. I think will 
you see our MILCON from 2012 to 2013 was maintained pretty 
close to where it had been. If we had sequestration, clearly, 
there would have to be another examination, a strategic 
examination, of what makes sense. We have not done that 
examination at this point, and would not be able to project 
what that might look like.
    Mr. Culberson. I encourage you to do it as soon as 
possible. It is important for us as a part of this debate in 
helping to understand what the impact would be that we can talk 
to our constituents and our colleagues to help understand the 
scale of the problem that creates for our national security.
    Ms. Pfannestiel. Absolutely. I believe that Secretary 
Panetta said starting this summer we would have to start doing 
the analysis of what would happen with sequestration.
    Mr. Culberson. Thank you.
    Secretary Yonkers.
    Mr. Yonkers. Mr. Chairman, same situation with the Air 
Force. We haven't put into paper yet and tried to look at what 
the impacts from the sequestration might be, but it is just 
sort of, again, back of the envelope. When you look at the 487 
billion, and we are pulling 300 aircraft, and we are affecting 
every State and every territory with regards to personnel and 
force structure reductions, and the military construction 
program and the other kinds of things across the budget, 
another half a trillion dollars would at least double that 
impact, if not more.
    Mr. Culberson. It is important information for us to hear 
and see.
    Tell you what, let me go to my friend Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. I have been in 
meetings, and while this has been just kind of give you a gut 
estimate, it is frightening. The gut estimate they gave us was 
100,000 soldiers from the Army, a full carrier group from the 
Navy, and Joint Strike Fighter from the Air Force. That is 
gone, the numbers. That doesn't mean that is what they will get 
rid of; that means that is an example of what you--when I say a 
full carrier group, I don't mean just a carrier, I mean all the 
ships that sail with the carrier. That is a whole bunch of 
them. Of course, the Joint Strike Fighter we have been trying 
to get in place for a long time, and we have already spent a 
ton of money getting it there, and we desperately need it. We 
are undergunned by all of our enemies.
    I am going to have to go back to some mundane stuff, but it 
is kind of important. I am going to have to spend my next 
Tuesday all day in Albuquerque, New Mexico, discussing with the 
regional director of Fish and Wildlife some issues that are 
going on in my county.
    And I think you are probably aware of this, but due to a 
settlement made by U.S. Fish and Wildlife with the WildEarth 
Guardians Group, we are required to determine whether 252 
candidates for endangered species list are to be placed on that 
list. And the overwhelming majority of those 252 various 
species lie in the southern tier and the western tier of our 
country.
    The estimates that we got, that Florida would have about 28 
candidates; California and Washington--and that is Navy and Air 
Force--California and Washington would have--that is Air Force, 
Navy, and Army--would have 23 candidates; Texas, again, in all 
three--has all three services, would have 21; New Mexico would 
have 16. And many of these things are rolling off the drawing 
board fairly rapidly.
    And the first, I guess, the question is, I am sure you are 
aware of this, but it has been our experience at Fort Hood that 
one species shut down all of the training ranges at Fort Hood, 
and we had to negotiate a set-aside, which we commend the fish 
folks for being willing to do it. We did some creative 
thinking. We set up a conservatory area to preserve this 
species, and we were able to start firing at our firing ranges. 
But if you are an armored post, and you can't shoot your 
weapons, you are not a very effectively trained post. And I 
understand that some of the amphibious work in California was 
shut down for the Navy and Marine Corps because of species on 
the coast.
    We have got this all coming our way. First, I guess the 
question--and really, I would address it to Dr. Robyn because 
she is DoD, but all of you are going to have this issue--are we 
prepared to make--to be able to protect realistic training as 
we deal with this? Are DoD and the services prepared to get 
involved, because this is really a fast-track situation?
    The other question that I guess is have you come up--there 
is the Sikes Act, and it is set up to assist us in dealing with 
this. Is it sufficient, in your analysis, to deal with these 
issues? Two hundred fifty-two species coming at you one at a 
time can be extremely expensive and extremely onerous in time 
and talent. In Sikes is there enough help there? Do we need to 
try to get you more help in dealing with this issue, because I 
am very concerned about these things that are coming down 
rapidly.

                     THREATENED ENDANGERED SPECIES

    Ms. Robyn. Thank you for your support.
    To put this in perspective, we do have on our installations 
roughly 440 threatened endangered species, and of those, 40 are 
found only on military installations. Our installations have 
become a haven as population has developed up around 
installations that were at one time fairly isolated. They have 
taken refuge. So it is something we manage very, very carefully 
and aggressively, and the Sikes Act and our integrated natural 
resources management plans are key to that.
    The U.S. Fish and Wildlife Service has to evaluate these 
251 candidate species by 2017. Of them, 60 are sufficiently 
prevalent that if they were listed, it would have some impact 
on our mission. So 60 of the 251 could create an issue.
    Mr. Culberson. If I could, would the gentleman yield for 
just a second?
    Mr. Carter. Certainly, Mr. Chairman.
    Mr. Culberson. Do you have a voice in the settlement? Since 
60 of those species go on a list will have an impact on your 
mission, do you have a voice?
    Ms. Robyn. Well, no.
    Mr. Culberson. Do you object to the settlement?
    Ms. Robyn. Well, by law, under the Endangered Species Act, 
we work very closely with U.S. Fish and Wildlife. We have a 
partnership which we doubled down on to share data and 
scientific data, and to discuss what kinds of natural resource 
management actions we can take. We have told the services to be 
managing very aggressively using these plans that the Sikes Act 
makes possible. We are not panicking at this stage.
    I think I liked your question about are there ways that we 
can amend the Sikes Act, and I had two suggestions for my 
staff, and I am not sure I can do them justice. One has to do 
with being able to pool resources with the Department of 
Agriculture and the Department of Interior when our land is 
adjacent to their land. For example, at Fort Belvoir and the 
Prince William Forest, and we are both managing the bald eagle. 
If we could join forces, we could more effectively manage 
threatened and endangered species.
    Mr. Culberson. Could you object to an settlement like that, 
Judge? Normal you can----
    Mr. Carter. Well, no. It is a very unusual act. At least 
this is what I have been told, and I have been working on this 
for Highway 195 for 3 years; got the money, and everybody is 
ready to go except for one cave beetle. And I am having to buy 
caves. And if you own a cave, hold on to it. It is worth at 
least a million dollars, because I bought three now, and I need 
to buy one more; $4 million we are going to spend for a cave 
beetle.
    But this is more important. It is a catch-22 to this 
extent. Once the court has declared a scientific study shall be 
made, there is a year to make that study. They can delay 
ordering the study, but once it is ordered, you have got a 
year. There are 252 of them, and they have all got to be done 
by 2016. Add it up. That is a whole lot of scientific studies. 
We have got three salamanders. That is three studies we have to 
do just in one county. And we are coming right back with two or 
three species of sweetwater clam, or something like that. There 
are six studies out of two counties in the State of Texas that 
have to be--that could potentially have to be done before 2016.
    That is not very long until 2016, and the consequence is if 
the study is not done, the court calls the court to order and 
says, may I see the study, please? I am sorry, Your Honor, the 
study is not done. It is placed on the Endangered Species Act 
on this. It is your burden to have the study done, and fish 
can't do them, and they will tell you they can't do them.
    In protecting our training mission on all of our posts and 
bases that we have got in the country, you have got to stay on 
top of that catch-22. If they don't do the study, you have 
either got to have one to present to defend your side, and that 
will cost you about a million bucks apiece, but they won't 
let--contract out those studies.

                   THREATENED AND ENDANGERED SPECIES

    I already asked that question, will you contract with a 
private industry to do the study because you can't do it, you 
tell me you don't have the resources, and, no, we won't. 
Because at the point in time when it reaches that judge, if 
they don't have a study, it goes on the list. And that is what 
you better be looking at.
    I mean, if I am wrong, I would be glad to hear I am wrong, 
but I don't think I am. And that really needs to be fixed in 
the act, but that is a whole different story. But this is 
serious stuff.
    Ms. Robyn. Yes, I agree.
    Mr. Carter. It will shut down the entire western half of 
two counties in my district, which are the two fastest-growing 
counties in the United States. And they will stop growing. 
Actually, it is salamanders, three salamanders.
    Ms. Robyn. I will follow up with them with a more thorough 
answer on what we are doing in terms of those studies.
    Mr. Carter. And you have done wonderful work. Four years 
ago with the golden-cheeked warbler, you guys came in there, 
you put together a conservation plan. Our comptroller is a big 
assistance of that in Texas. She has got a lot of 
trustworthiness. People trust her, and she is doing a great 
job. But I am afraid, like you say, 252 by 2016, that could 
very quickly become overwhelming.
    Mr. Culberson. Yeah, and it does seem like you can work out 
some reasonable mitigation.
    Mr. Carter. We should be able to compromise this.
    Mr. Culberson. Right.
    Judge, I still don't understand how parties can enter into 
a settlement agreement and affect the rights and----
    Mr. Carter. Read the Endangered Species Act.
    Mr. Culberson. Even though you are not a party----
    Ms. Robyn. What we have been able to do is in many cases, 
most cases is, avoid what is called critical habitat 
designation. If they designate Fort Hood or Belvoir a critical 
habitat for a threatened or endangered species, that severely 
limits our flexibility to do training and other operational 
activities. We are able to avoid that in many, if not most, 
cases through this integrated natural resources management 
plan.
    Mr. Culberson. I know we need to wrap up. I know Sam needs 
to step out, too.
    Sam, do you have any follow-up questions you want to do 
before you need to leave, my friend?
    Mr. Farr. Just one suggestion. If you really want to do 
some savings, this interagency agreements, I mean, base op 
agreements with the local communities, if you would ask the 
Congress for the authority to do that.
    Ms. Robyn. Will we get the authority?
    Mr. Farr. Well, I think it is very important that you seek 
it, and seek it with passion, because I don't know how many 
bases you could do, but, you know, you have saved just little 
old Monterey with the defense languages and naval postgraduate 
school a savings of millions and millions of dollars. And I 
think if you project that with all of the services all over the 
United States, it is a smart thing to do.
    Ms. Robyn. It is a wonderful model. There are some 
impediments to doing it elsewhere, and I would love to hear 
your thoughts on what is the best way to go about getting that 
authority. We would like to get it at a minimum on a pilot, 
renew the pilot authority. I am working with the Air Force and 
Army on this. I think Army has been very supportive, as you 
know, of this. We would like to get that authority more 
broadly.
    Mr. Farr. Do you have the ability to give us all of the 
bases that would be subject; if you had open authority, who 
might want to engage in it? At least I can talk to the Members 
of Congress from those communities.
    Ms. Robyn. All right. Good.
    Mr. Farr. As you know, it is a big educational process. 
Essentially what this does is allow your municipal government 
to provide all of the base operations. They contract with the 
city, who already has a fire department, public works 
department.
    Mr. Culberson. Right. Utilities.
    Mr. Farr. You know, parks department. So whatever the base 
needs, we have a Federal--I mean, the union pushback, but those 
are usually union jobs in the States.
    Ms. Robyn. Right.
    Mr. Farr. But if the communities are already doing these 
services, and they can provide them at the base for a little 
additional cost, not as expensive as having our own operations.
    Mr. Culberson. Plus the local government has got a revenue 
stream, Sam, that they can use, the property taxes, because--
they may have property taxes.
    Mr. Farr. Yeah. So it has worked very well for Monterey and 
the facilities there. In fact, they all get better attention. 
Things get fixed faster. It is just a very happy relationship.
    Mr. Culberson. I want to thank you all so much for being 
here. Submit the remainder of the questions for the record in 
writing to the working group.
    We want to make sure that members in the uniform have as 
few worries as possible when it comes to their safety, 
security, and the quality of life for themselves and their 
families.
    Thank you for your service to the Nation, and the hearing 
is adjourned.

[GRAPHIC] [TIFF OMITTED] T5969A.095

[GRAPHIC] [TIFF OMITTED] T5969A.096

[GRAPHIC] [TIFF OMITTED] T5969A.097

[GRAPHIC] [TIFF OMITTED] T5969A.098

[GRAPHIC] [TIFF OMITTED] T5969A.099

[GRAPHIC] [TIFF OMITTED] T5969A.100

[GRAPHIC] [TIFF OMITTED] T5969A.101

[GRAPHIC] [TIFF OMITTED] T5969A.102

[GRAPHIC] [TIFF OMITTED] T5969A.103

[GRAPHIC] [TIFF OMITTED] T5969A.104

[GRAPHIC] [TIFF OMITTED] T5969A.105

[GRAPHIC] [TIFF OMITTED] T5969A.106

[GRAPHIC] [TIFF OMITTED] T5969A.107

[GRAPHIC] [TIFF OMITTED] T5969A.108

[GRAPHIC] [TIFF OMITTED] T5969A.109

[GRAPHIC] [TIFF OMITTED] T5969A.110

[GRAPHIC] [TIFF OMITTED] T5969A.111

[GRAPHIC] [TIFF OMITTED] T5969A.112

[GRAPHIC] [TIFF OMITTED] T5969A.113

[GRAPHIC] [TIFF OMITTED] T5969A.114

[GRAPHIC] [TIFF OMITTED] T5969A.115

[GRAPHIC] [TIFF OMITTED] T5969A.116

[GRAPHIC] [TIFF OMITTED] T5969A.117

[GRAPHIC] [TIFF OMITTED] T5969A.118

[GRAPHIC] [TIFF OMITTED] T5969A.119

[GRAPHIC] [TIFF OMITTED] T5969A.120

[GRAPHIC] [TIFF OMITTED] T5969A.121

[GRAPHIC] [TIFF OMITTED] T5969A.122

[GRAPHIC] [TIFF OMITTED] T5969A.123

[GRAPHIC] [TIFF OMITTED] T5969A.124

[GRAPHIC] [TIFF OMITTED] T5969A.125

[GRAPHIC] [TIFF OMITTED] T5969A.126

[GRAPHIC] [TIFF OMITTED] T5969A.127

[GRAPHIC] [TIFF OMITTED] T5969A.128

[GRAPHIC] [TIFF OMITTED] T5969A.129

[GRAPHIC] [TIFF OMITTED] T5969A.130

[GRAPHIC] [TIFF OMITTED] T5969A.131

[GRAPHIC] [TIFF OMITTED] T5969A.132

[GRAPHIC] [TIFF OMITTED] T5969A.133

[GRAPHIC] [TIFF OMITTED] T5969A.134

[GRAPHIC] [TIFF OMITTED] T5969A.135

[GRAPHIC] [TIFF OMITTED] T5969A.136

[GRAPHIC] [TIFF OMITTED] T5969A.137

[GRAPHIC] [TIFF OMITTED] T5969A.138

[GRAPHIC] [TIFF OMITTED] T5969A.139

[GRAPHIC] [TIFF OMITTED] T5969A.140

[GRAPHIC] [TIFF OMITTED] T5969A.141

[GRAPHIC] [TIFF OMITTED] T5969A.142

[GRAPHIC] [TIFF OMITTED] T5969A.143

[GRAPHIC] [TIFF OMITTED] T5969A.144

[GRAPHIC] [TIFF OMITTED] T5969A.145

[GRAPHIC] [TIFF OMITTED] T5969A.146

[GRAPHIC] [TIFF OMITTED] T5969A.147

[GRAPHIC] [TIFF OMITTED] T5969A.148

[GRAPHIC] [TIFF OMITTED] T5969A.149

[GRAPHIC] [TIFF OMITTED] T5969A.150

[GRAPHIC] [TIFF OMITTED] T5969A.151

[GRAPHIC] [TIFF OMITTED] T5969A.152

[GRAPHIC] [TIFF OMITTED] T5969A.153

[GRAPHIC] [TIFF OMITTED] T5969A.154

[GRAPHIC] [TIFF OMITTED] T5969A.155

[GRAPHIC] [TIFF OMITTED] T5969A.156

[GRAPHIC] [TIFF OMITTED] T5969A.157

[GRAPHIC] [TIFF OMITTED] T5969A.158

[GRAPHIC] [TIFF OMITTED] T5969A.159

[GRAPHIC] [TIFF OMITTED] T5969A.160

[GRAPHIC] [TIFF OMITTED] T5969A.161

[GRAPHIC] [TIFF OMITTED] T5969A.162

[GRAPHIC] [TIFF OMITTED] T5969A.163

[GRAPHIC] [TIFF OMITTED] T5969A.164

[GRAPHIC] [TIFF OMITTED] T5969A.165

[GRAPHIC] [TIFF OMITTED] T5969A.166

[GRAPHIC] [TIFF OMITTED] T5969A.167

[GRAPHIC] [TIFF OMITTED] T5969A.168

[GRAPHIC] [TIFF OMITTED] T5969A.169

[GRAPHIC] [TIFF OMITTED] T5969A.170

[GRAPHIC] [TIFF OMITTED] T5969A.171

[GRAPHIC] [TIFF OMITTED] T5969A.172

[GRAPHIC] [TIFF OMITTED] T5969A.173

[GRAPHIC] [TIFF OMITTED] T5969A.174

[GRAPHIC] [TIFF OMITTED] T5969A.175

[GRAPHIC] [TIFF OMITTED] T5969A.176

[GRAPHIC] [TIFF OMITTED] T5969A.177

[GRAPHIC] [TIFF OMITTED] T5969A.178

[GRAPHIC] [TIFF OMITTED] T5969A.179

[GRAPHIC] [TIFF OMITTED] T5969A.180

[GRAPHIC] [TIFF OMITTED] T5969A.181

[GRAPHIC] [TIFF OMITTED] T5969A.182

[GRAPHIC] [TIFF OMITTED] T5969A.183

[GRAPHIC] [TIFF OMITTED] T5969A.184

[GRAPHIC] [TIFF OMITTED] T5969A.185

[GRAPHIC] [TIFF OMITTED] T5969A.186

[GRAPHIC] [TIFF OMITTED] T5969A.187

[GRAPHIC] [TIFF OMITTED] T5969A.188

[GRAPHIC] [TIFF OMITTED] T5969A.189

[GRAPHIC] [TIFF OMITTED] T5969A.190

[GRAPHIC] [TIFF OMITTED] T5969A.191

[GRAPHIC] [TIFF OMITTED] T5969A.192

[GRAPHIC] [TIFF OMITTED] T5969A.193

[GRAPHIC] [TIFF OMITTED] T5969A.194

[GRAPHIC] [TIFF OMITTED] T5969A.195

[GRAPHIC] [TIFF OMITTED] T5969A.196

[GRAPHIC] [TIFF OMITTED] T5969A.197

[GRAPHIC] [TIFF OMITTED] T5969A.198

[GRAPHIC] [TIFF OMITTED] T5969A.199

[GRAPHIC] [TIFF OMITTED] T5969A.200

[GRAPHIC] [TIFF OMITTED] T5969A.201

[GRAPHIC] [TIFF OMITTED] T5969A.202

[GRAPHIC] [TIFF OMITTED] T5969A.203

[GRAPHIC] [TIFF OMITTED] T5969A.204

[GRAPHIC] [TIFF OMITTED] T5969A.205

[GRAPHIC] [TIFF OMITTED] T5969A.206

[GRAPHIC] [TIFF OMITTED] T5969A.207

[GRAPHIC] [TIFF OMITTED] T5969A.208

[GRAPHIC] [TIFF OMITTED] T5969A.209

[GRAPHIC] [TIFF OMITTED] T5969A.210

[GRAPHIC] [TIFF OMITTED] T5969A.211

[GRAPHIC] [TIFF OMITTED] T5969A.212

[GRAPHIC] [TIFF OMITTED] T5969A.213

[GRAPHIC] [TIFF OMITTED] T5969A.214

[GRAPHIC] [TIFF OMITTED] T5969A.215

[GRAPHIC] [TIFF OMITTED] T5969A.216

[GRAPHIC] [TIFF OMITTED] T5969A.217

[GRAPHIC] [TIFF OMITTED] T5969A.218

[GRAPHIC] [TIFF OMITTED] T5969A.219

[GRAPHIC] [TIFF OMITTED] T5969A.220

[GRAPHIC] [TIFF OMITTED] T5969A.221

[GRAPHIC] [TIFF OMITTED] T5969A.222

[GRAPHIC] [TIFF OMITTED] T5969A.223

[GRAPHIC] [TIFF OMITTED] T5969A.224

[GRAPHIC] [TIFF OMITTED] T5969A.225

[GRAPHIC] [TIFF OMITTED] T5969A.226

[GRAPHIC] [TIFF OMITTED] T5969A.227

[GRAPHIC] [TIFF OMITTED] T5969A.228

[GRAPHIC] [TIFF OMITTED] T5969A.229

[GRAPHIC] [TIFF OMITTED] T5969A.230

[GRAPHIC] [TIFF OMITTED] T5969A.231

[GRAPHIC] [TIFF OMITTED] T5969A.232

[GRAPHIC] [TIFF OMITTED] T5969A.233

[GRAPHIC] [TIFF OMITTED] T5969A.234

[GRAPHIC] [TIFF OMITTED] T5969A.235

[GRAPHIC] [TIFF OMITTED] T5969A.236

[GRAPHIC] [TIFF OMITTED] T5969A.237

[GRAPHIC] [TIFF OMITTED] T5969A.238

[GRAPHIC] [TIFF OMITTED] T5969A.239

[GRAPHIC] [TIFF OMITTED] T5969A.240

[GRAPHIC] [TIFF OMITTED] T5969A.241

[GRAPHIC] [TIFF OMITTED] T5969A.242

[GRAPHIC] [TIFF OMITTED] T5969A.243

[GRAPHIC] [TIFF OMITTED] T5969A.244

[GRAPHIC] [TIFF OMITTED] T5969A.245

[GRAPHIC] [TIFF OMITTED] T5969A.246

[GRAPHIC] [TIFF OMITTED] T5969A.247

[GRAPHIC] [TIFF OMITTED] T5969A.248

[GRAPHIC] [TIFF OMITTED] T5969A.249

[GRAPHIC] [TIFF OMITTED] T5969A.250

[GRAPHIC] [TIFF OMITTED] T5969A.251

[GRAPHIC] [TIFF OMITTED] T5969A.252

[GRAPHIC] [TIFF OMITTED] T5969A.253

[GRAPHIC] [TIFF OMITTED] T5969A.254

[GRAPHIC] [TIFF OMITTED] T5969A.255

[GRAPHIC] [TIFF OMITTED] T5969A.256

[GRAPHIC] [TIFF OMITTED] T5969A.257

[GRAPHIC] [TIFF OMITTED] T5969A.258

[GRAPHIC] [TIFF OMITTED] T5969A.259

[GRAPHIC] [TIFF OMITTED] T5969A.260

[GRAPHIC] [TIFF OMITTED] T5969A.261

[GRAPHIC] [TIFF OMITTED] T5969A.262

[GRAPHIC] [TIFF OMITTED] T5969A.263

[GRAPHIC] [TIFF OMITTED] T5969A.264

[GRAPHIC] [TIFF OMITTED] T5969A.265

[GRAPHIC] [TIFF OMITTED] T5969A.266

[GRAPHIC] [TIFF OMITTED] T5969A.267

[GRAPHIC] [TIFF OMITTED] T5969A.268

[GRAPHIC] [TIFF OMITTED] T5969A.269

[GRAPHIC] [TIFF OMITTED] T5969A.270

[GRAPHIC] [TIFF OMITTED] T5969A.271

[GRAPHIC] [TIFF OMITTED] T5969A.272

[GRAPHIC] [TIFF OMITTED] T5969A.273

[GRAPHIC] [TIFF OMITTED] T5969A.274

[GRAPHIC] [TIFF OMITTED] T5969A.275

[GRAPHIC] [TIFF OMITTED] T5969A.276

[GRAPHIC] [TIFF OMITTED] T5969A.277

[GRAPHIC] [TIFF OMITTED] T5969A.278

[GRAPHIC] [TIFF OMITTED] T5969A.279

[GRAPHIC] [TIFF OMITTED] T5969A.280

[GRAPHIC] [TIFF OMITTED] T5969A.281

[GRAPHIC] [TIFF OMITTED] T5969A.282

[GRAPHIC] [TIFF OMITTED] T5969A.283

[GRAPHIC] [TIFF OMITTED] T5969A.284

[GRAPHIC] [TIFF OMITTED] T5969A.285

[GRAPHIC] [TIFF OMITTED] T5969A.286

[GRAPHIC] [TIFF OMITTED] T5969A.287

[GRAPHIC] [TIFF OMITTED] T5969A.288

[GRAPHIC] [TIFF OMITTED] T5969A.289

[GRAPHIC] [TIFF OMITTED] T5969A.290

[GRAPHIC] [TIFF OMITTED] T5969A.291

[GRAPHIC] [TIFF OMITTED] T5969A.292

[GRAPHIC] [TIFF OMITTED] T5969A.293

[GRAPHIC] [TIFF OMITTED] T5969A.294

[GRAPHIC] [TIFF OMITTED] T5969A.295

[GRAPHIC] [TIFF OMITTED] T5969A.296

[GRAPHIC] [TIFF OMITTED] T5969A.297

[GRAPHIC] [TIFF OMITTED] T5969A.298

[GRAPHIC] [TIFF OMITTED] T5969A.299

[GRAPHIC] [TIFF OMITTED] T5969A.300

[GRAPHIC] [TIFF OMITTED] T5969A.301

[GRAPHIC] [TIFF OMITTED] T5969A.302

[GRAPHIC] [TIFF OMITTED] T5969A.303

[GRAPHIC] [TIFF OMITTED] T5969A.304

[GRAPHIC] [TIFF OMITTED] T5969A.305

[GRAPHIC] [TIFF OMITTED] T5969A.306

[GRAPHIC] [TIFF OMITTED] T5969A.307

[GRAPHIC] [TIFF OMITTED] T5969A.308

[GRAPHIC] [TIFF OMITTED] T5969A.309

[GRAPHIC] [TIFF OMITTED] T5969A.310

[GRAPHIC] [TIFF OMITTED] T5969A.311

[GRAPHIC] [TIFF OMITTED] T5969A.312

[GRAPHIC] [TIFF OMITTED] T5969A.313

[GRAPHIC] [TIFF OMITTED] T5969A.314

[GRAPHIC] [TIFF OMITTED] T5969A.315

[GRAPHIC] [TIFF OMITTED] T5969A.316

[GRAPHIC] [TIFF OMITTED] T5969A.317

[GRAPHIC] [TIFF OMITTED] T5969A.318

[GRAPHIC] [TIFF OMITTED] T5969A.319

[GRAPHIC] [TIFF OMITTED] T5969A.320

[GRAPHIC] [TIFF OMITTED] T5969A.321

[GRAPHIC] [TIFF OMITTED] T5969A.322

[GRAPHIC] [TIFF OMITTED] T5969A.323

[GRAPHIC] [TIFF OMITTED] T5969A.324

[GRAPHIC] [TIFF OMITTED] T5969A.325

[GRAPHIC] [TIFF OMITTED] T5969A.326

[GRAPHIC] [TIFF OMITTED] T5969A.327

[GRAPHIC] [TIFF OMITTED] T5969A.328

[GRAPHIC] [TIFF OMITTED] T5969A.329

[GRAPHIC] [TIFF OMITTED] T5969A.330

[GRAPHIC] [TIFF OMITTED] T5969A.331

[GRAPHIC] [TIFF OMITTED] T5969A.332

[GRAPHIC] [TIFF OMITTED] T5969A.333

[GRAPHIC] [TIFF OMITTED] T5969A.334

[GRAPHIC] [TIFF OMITTED] T5969A.335

[GRAPHIC] [TIFF OMITTED] T5969A.336

[GRAPHIC] [TIFF OMITTED] T5969A.337

[GRAPHIC] [TIFF OMITTED] T5969A.338

[GRAPHIC] [TIFF OMITTED] T5969A.339

[GRAPHIC] [TIFF OMITTED] T5969A.340

[GRAPHIC] [TIFF OMITTED] T5969A.341

[GRAPHIC] [TIFF OMITTED] T5969A.342

[GRAPHIC] [TIFF OMITTED] T5969A.343

[GRAPHIC] [TIFF OMITTED] T5969A.344

[GRAPHIC] [TIFF OMITTED] T5969A.345

[GRAPHIC] [TIFF OMITTED] T5969A.346

[GRAPHIC] [TIFF OMITTED] T5969A.347

[GRAPHIC] [TIFF OMITTED] T5969A.348

[GRAPHIC] [TIFF OMITTED] T5969A.349

[GRAPHIC] [TIFF OMITTED] T5969A.350

[GRAPHIC] [TIFF OMITTED] T5969A.351

[GRAPHIC] [TIFF OMITTED] T5969A.352

[GRAPHIC] [TIFF OMITTED] T5969A.353

[GRAPHIC] [TIFF OMITTED] T5969A.354

[GRAPHIC] [TIFF OMITTED] T5969A.355

[GRAPHIC] [TIFF OMITTED] T5969A.356

[GRAPHIC] [TIFF OMITTED] T5969A.357

[GRAPHIC] [TIFF OMITTED] T5969A.358

[GRAPHIC] [TIFF OMITTED] T5969A.359

[GRAPHIC] [TIFF OMITTED] T5969A.360

[GRAPHIC] [TIFF OMITTED] T5969A.361

[GRAPHIC] [TIFF OMITTED] T5969A.362

[GRAPHIC] [TIFF OMITTED] T5969A.363

[GRAPHIC] [TIFF OMITTED] T5969A.364

[GRAPHIC] [TIFF OMITTED] T5969A.365

[GRAPHIC] [TIFF OMITTED] T5969A.366

[GRAPHIC] [TIFF OMITTED] T5969A.367

[GRAPHIC] [TIFF OMITTED] T5969A.368

[GRAPHIC] [TIFF OMITTED] T5969A.369

[GRAPHIC] [TIFF OMITTED] T5969A.370

[GRAPHIC] [TIFF OMITTED] T5969A.371

[GRAPHIC] [TIFF OMITTED] T5969A.372

[GRAPHIC] [TIFF OMITTED] T5969A.373

[GRAPHIC] [TIFF OMITTED] T5969A.374

[GRAPHIC] [TIFF OMITTED] T5969A.375

[GRAPHIC] [TIFF OMITTED] T5969A.376

[GRAPHIC] [TIFF OMITTED] T5969A.377

[GRAPHIC] [TIFF OMITTED] T5969A.378

[GRAPHIC] [TIFF OMITTED] T5969A.379

[GRAPHIC] [TIFF OMITTED] T5969A.380

[GRAPHIC] [TIFF OMITTED] T5969A.381

[GRAPHIC] [TIFF OMITTED] T5969A.382

[GRAPHIC] [TIFF OMITTED] T5969A.383

[GRAPHIC] [TIFF OMITTED] T5969A.384

[GRAPHIC] [TIFF OMITTED] T5969A.385

[GRAPHIC] [TIFF OMITTED] T5969A.386

[GRAPHIC] [TIFF OMITTED] T5969A.387

[GRAPHIC] [TIFF OMITTED] T5969A.388

[GRAPHIC] [TIFF OMITTED] T5969A.389

[GRAPHIC] [TIFF OMITTED] T5969A.390

[GRAPHIC] [TIFF OMITTED] T5969A.391

[GRAPHIC] [TIFF OMITTED] T5969A.392

[GRAPHIC] [TIFF OMITTED] T5969A.393

[GRAPHIC] [TIFF OMITTED] T5969A.394

[GRAPHIC] [TIFF OMITTED] T5969A.395

[GRAPHIC] [TIFF OMITTED] T5969A.396

[GRAPHIC] [TIFF OMITTED] T5969A.397

[GRAPHIC] [TIFF OMITTED] T5969A.398

[GRAPHIC] [TIFF OMITTED] T5969A.399

[GRAPHIC] [TIFF OMITTED] T5969A.400

[GRAPHIC] [TIFF OMITTED] T5969A.401

[GRAPHIC] [TIFF OMITTED] T5969A.402

[GRAPHIC] [TIFF OMITTED] T5969A.403

[GRAPHIC] [TIFF OMITTED] T5969A.404

[GRAPHIC] [TIFF OMITTED] T5969A.405

[GRAPHIC] [TIFF OMITTED] T5969A.406

[GRAPHIC] [TIFF OMITTED] T5969A.407

[GRAPHIC] [TIFF OMITTED] T5969A.408

[GRAPHIC] [TIFF OMITTED] T5969A.409

[GRAPHIC] [TIFF OMITTED] T5969A.410

[GRAPHIC] [TIFF OMITTED] T5969A.411

[GRAPHIC] [TIFF OMITTED] T5969A.412

[GRAPHIC] [TIFF OMITTED] T5969A.413

[GRAPHIC] [TIFF OMITTED] T5969A.414

[GRAPHIC] [TIFF OMITTED] T5969A.415

[GRAPHIC] [TIFF OMITTED] T5969A.416

[GRAPHIC] [TIFF OMITTED] T5969A.417

[GRAPHIC] [TIFF OMITTED] T5969A.418

[GRAPHIC] [TIFF OMITTED] T5969A.419

[GRAPHIC] [TIFF OMITTED] T5969A.420

[GRAPHIC] [TIFF OMITTED] T5969A.421

[GRAPHIC] [TIFF OMITTED] T5969A.422

[GRAPHIC] [TIFF OMITTED] T5969A.423

[GRAPHIC] [TIFF OMITTED] T5969A.424

[GRAPHIC] [TIFF OMITTED] T5969A.425

[GRAPHIC] [TIFF OMITTED] T5969A.426

[GRAPHIC] [TIFF OMITTED] T5969A.427

[GRAPHIC] [TIFF OMITTED] T5969A.428

[GRAPHIC] [TIFF OMITTED] T5969A.429

[GRAPHIC] [TIFF OMITTED] T5969A.430

[GRAPHIC] [TIFF OMITTED] T5969A.431

[GRAPHIC] [TIFF OMITTED] T5969A.432

[GRAPHIC] [TIFF OMITTED] T5969A.433

[GRAPHIC] [TIFF OMITTED] T5969A.434

[GRAPHIC] [TIFF OMITTED] T5969A.435

[GRAPHIC] [TIFF OMITTED] T5969A.436

[GRAPHIC] [TIFF OMITTED] T5969A.437

[GRAPHIC] [TIFF OMITTED] T5969A.438

[GRAPHIC] [TIFF OMITTED] T5969A.439

[GRAPHIC] [TIFF OMITTED] T5969A.440

[GRAPHIC] [TIFF OMITTED] T5969A.441

[GRAPHIC] [TIFF OMITTED] T5969A.442

[GRAPHIC] [TIFF OMITTED] T5969A.443

[GRAPHIC] [TIFF OMITTED] T5969A.444

[GRAPHIC] [TIFF OMITTED] T5969A.445

[GRAPHIC] [TIFF OMITTED] T5969A.446

[GRAPHIC] [TIFF OMITTED] T5969A.447

[GRAPHIC] [TIFF OMITTED] T5969A.448

[GRAPHIC] [TIFF OMITTED] T5969A.449

[GRAPHIC] [TIFF OMITTED] T5969A.450

[GRAPHIC] [TIFF OMITTED] T5969A.451

[GRAPHIC] [TIFF OMITTED] T5969A.452

[GRAPHIC] [TIFF OMITTED] T5969A.453

[GRAPHIC] [TIFF OMITTED] T5969A.454

[GRAPHIC] [TIFF OMITTED] T5969A.455

[GRAPHIC] [TIFF OMITTED] T5969A.456

[GRAPHIC] [TIFF OMITTED] T5969A.457

[GRAPHIC] [TIFF OMITTED] T5969A.458

[GRAPHIC] [TIFF OMITTED] T5969A.459

[GRAPHIC] [TIFF OMITTED] T5969A.460

[GRAPHIC] [TIFF OMITTED] T5969A.461

[GRAPHIC] [TIFF OMITTED] T5969A.462

[GRAPHIC] [TIFF OMITTED] T5969A.463

[GRAPHIC] [TIFF OMITTED] T5969A.464

[GRAPHIC] [TIFF OMITTED] T5969A.465

[GRAPHIC] [TIFF OMITTED] T5969A.466

[GRAPHIC] [TIFF OMITTED] T5969A.467

[GRAPHIC] [TIFF OMITTED] T5969A.468

[GRAPHIC] [TIFF OMITTED] T5969A.469

[GRAPHIC] [TIFF OMITTED] T5969A.470

[GRAPHIC] [TIFF OMITTED] T5969A.471

[GRAPHIC] [TIFF OMITTED] T5969A.472

[GRAPHIC] [TIFF OMITTED] T5969A.473

[GRAPHIC] [TIFF OMITTED] T5969A.474

[GRAPHIC] [TIFF OMITTED] T5969A.475

[GRAPHIC] [TIFF OMITTED] T5969A.476

[GRAPHIC] [TIFF OMITTED] T5969A.477

[GRAPHIC] [TIFF OMITTED] T5969A.478

[GRAPHIC] [TIFF OMITTED] T5969A.479

[GRAPHIC] [TIFF OMITTED] T5969A.480

[GRAPHIC] [TIFF OMITTED] T5969A.481

[GRAPHIC] [TIFF OMITTED] T5969A.482

[GRAPHIC] [TIFF OMITTED] T5969A.483

[GRAPHIC] [TIFF OMITTED] T5969A.484

[GRAPHIC] [TIFF OMITTED] T5969A.485

[GRAPHIC] [TIFF OMITTED] T5969A.486

[GRAPHIC] [TIFF OMITTED] T5969A.487

[GRAPHIC] [TIFF OMITTED] T5969A.488

[GRAPHIC] [TIFF OMITTED] T5969A.489

[GRAPHIC] [TIFF OMITTED] T5969A.490

[GRAPHIC] [TIFF OMITTED] T5969A.491

[GRAPHIC] [TIFF OMITTED] T5969A.492

[GRAPHIC] [TIFF OMITTED] T5969A.493

[GRAPHIC] [TIFF OMITTED] T5969A.494

[GRAPHIC] [TIFF OMITTED] T5969A.495

[GRAPHIC] [TIFF OMITTED] T5969A.496

[GRAPHIC] [TIFF OMITTED] T5969A.497

[GRAPHIC] [TIFF OMITTED] T5969A.498

[GRAPHIC] [TIFF OMITTED] T5969A.499

[GRAPHIC] [TIFF OMITTED] T5969A.500

[GRAPHIC] [TIFF OMITTED] T5969A.501

[GRAPHIC] [TIFF OMITTED] T5969A.502

[GRAPHIC] [TIFF OMITTED] T5969A.503

[GRAPHIC] [TIFF OMITTED] T5969A.504

[GRAPHIC] [TIFF OMITTED] T5969A.505

[GRAPHIC] [TIFF OMITTED] T5969A.506

[GRAPHIC] [TIFF OMITTED] T5969A.507

[GRAPHIC] [TIFF OMITTED] T5969A.508

[GRAPHIC] [TIFF OMITTED] T5969A.509

[GRAPHIC] [TIFF OMITTED] T5969A.510

[GRAPHIC] [TIFF OMITTED] T5969A.511

[GRAPHIC] [TIFF OMITTED] T5969A.512

[GRAPHIC] [TIFF OMITTED] T5969A.513

[GRAPHIC] [TIFF OMITTED] T5969A.514

[GRAPHIC] [TIFF OMITTED] T5969A.515

[GRAPHIC] [TIFF OMITTED] T5969A.516

[GRAPHIC] [TIFF OMITTED] T5969A.517

[GRAPHIC] [TIFF OMITTED] T5969A.518

[GRAPHIC] [TIFF OMITTED] T5969A.519

[GRAPHIC] [TIFF OMITTED] T5969A.520

[GRAPHIC] [TIFF OMITTED] T5969A.521

[GRAPHIC] [TIFF OMITTED] T5969A.522

[GRAPHIC] [TIFF OMITTED] T5969A.523

[GRAPHIC] [TIFF OMITTED] T5969A.524

[GRAPHIC] [TIFF OMITTED] T5969A.525

[GRAPHIC] [TIFF OMITTED] T5969A.526

[GRAPHIC] [TIFF OMITTED] T5969A.527

[GRAPHIC] [TIFF OMITTED] T5969A.528

[GRAPHIC] [TIFF OMITTED] T5969A.529

[GRAPHIC] [TIFF OMITTED] T5969A.530

[GRAPHIC] [TIFF OMITTED] T5969A.531

[GRAPHIC] [TIFF OMITTED] T5969A.532

[GRAPHIC] [TIFF OMITTED] T5969A.533

[GRAPHIC] [TIFF OMITTED] T5969A.534

[GRAPHIC] [TIFF OMITTED] T5969A.535

[GRAPHIC] [TIFF OMITTED] T5969A.536

[GRAPHIC] [TIFF OMITTED] T5969A.537

[GRAPHIC] [TIFF OMITTED] T5969A.538

[GRAPHIC] [TIFF OMITTED] T5969A.539

[GRAPHIC] [TIFF OMITTED] T5969A.540

[GRAPHIC] [TIFF OMITTED] T5969A.541

[GRAPHIC] [TIFF OMITTED] T5969A.542

[GRAPHIC] [TIFF OMITTED] T5969A.543

[GRAPHIC] [TIFF OMITTED] T5969A.544

[GRAPHIC] [TIFF OMITTED] T5969A.545

[GRAPHIC] [TIFF OMITTED] T5969A.546

[GRAPHIC] [TIFF OMITTED] T5969A.547

[GRAPHIC] [TIFF OMITTED] T5969A.548

[GRAPHIC] [TIFF OMITTED] T5969A.549

[GRAPHIC] [TIFF OMITTED] T5969A.550

[GRAPHIC] [TIFF OMITTED] T5969A.551

[GRAPHIC] [TIFF OMITTED] T5969A.552

[GRAPHIC] [TIFF OMITTED] T5969A.553

[GRAPHIC] [TIFF OMITTED] T5969A.554

[GRAPHIC] [TIFF OMITTED] T5969A.555

[GRAPHIC] [TIFF OMITTED] T5969A.556

[GRAPHIC] [TIFF OMITTED] T5969A.557

[GRAPHIC] [TIFF OMITTED] T5969A.558

[GRAPHIC] [TIFF OMITTED] T5969A.559

[GRAPHIC] [TIFF OMITTED] T5969A.560

[GRAPHIC] [TIFF OMITTED] T5969A.561

[GRAPHIC] [TIFF OMITTED] T5969A.562

[GRAPHIC] [TIFF OMITTED] T5969A.563

[GRAPHIC] [TIFF OMITTED] T5969A.564

[GRAPHIC] [TIFF OMITTED] T5969A.565

[GRAPHIC] [TIFF OMITTED] T5969A.566

[GRAPHIC] [TIFF OMITTED] T5969A.567

[GRAPHIC] [TIFF OMITTED] T5969A.568

[GRAPHIC] [TIFF OMITTED] T5969A.569

[GRAPHIC] [TIFF OMITTED] T5969A.570

[GRAPHIC] [TIFF OMITTED] T5969A.571

[GRAPHIC] [TIFF OMITTED] T5969A.572

[GRAPHIC] [TIFF OMITTED] T5969A.573

[GRAPHIC] [TIFF OMITTED] T5969A.574

[GRAPHIC] [TIFF OMITTED] T5969A.575

[GRAPHIC] [TIFF OMITTED] T5969A.576

[GRAPHIC] [TIFF OMITTED] T5969A.577

[GRAPHIC] [TIFF OMITTED] T5969A.578

[GRAPHIC] [TIFF OMITTED] T5969A.579

[GRAPHIC] [TIFF OMITTED] T5969A.580

[GRAPHIC] [TIFF OMITTED] T5969A.581

[GRAPHIC] [TIFF OMITTED] T5969A.582

[GRAPHIC] [TIFF OMITTED] T5969A.583

[GRAPHIC] [TIFF OMITTED] T5969A.584

[GRAPHIC] [TIFF OMITTED] T5969A.585

[GRAPHIC] [TIFF OMITTED] T5969A.586

[GRAPHIC] [TIFF OMITTED] T5969A.587

[GRAPHIC] [TIFF OMITTED] T5969A.588

[GRAPHIC] [TIFF OMITTED] T5969A.589

[GRAPHIC] [TIFF OMITTED] T5969A.590

[GRAPHIC] [TIFF OMITTED] T5969A.591

[GRAPHIC] [TIFF OMITTED] T5969A.592

[GRAPHIC] [TIFF OMITTED] T5969A.593

[GRAPHIC] [TIFF OMITTED] T5969A.594

[GRAPHIC] [TIFF OMITTED] T5969A.595

[GRAPHIC] [TIFF OMITTED] T5969A.596

[GRAPHIC] [TIFF OMITTED] T5969A.597

[GRAPHIC] [TIFF OMITTED] T5969A.598

[GRAPHIC] [TIFF OMITTED] T5969A.599

[GRAPHIC] [TIFF OMITTED] T5969A.600

[GRAPHIC] [TIFF OMITTED] T5969A.601

[GRAPHIC] [TIFF OMITTED] T5969A.602

[GRAPHIC] [TIFF OMITTED] T5969A.603

[GRAPHIC] [TIFF OMITTED] T5969A.604

[GRAPHIC] [TIFF OMITTED] T5969A.605

[GRAPHIC] [TIFF OMITTED] T5969A.606

[GRAPHIC] [TIFF OMITTED] T5969A.607

[GRAPHIC] [TIFF OMITTED] T5969A.608

[GRAPHIC] [TIFF OMITTED] T5969A.609

[GRAPHIC] [TIFF OMITTED] T5969A.610

[GRAPHIC] [TIFF OMITTED] T5969A.611

[GRAPHIC] [TIFF OMITTED] T5969A.612

[GRAPHIC] [TIFF OMITTED] T5969A.613

[GRAPHIC] [TIFF OMITTED] T5969A.614

[GRAPHIC] [TIFF OMITTED] T5969A.615

[GRAPHIC] [TIFF OMITTED] T5969A.616

[GRAPHIC] [TIFF OMITTED] T5969A.617

[GRAPHIC] [TIFF OMITTED] T5969A.618

[GRAPHIC] [TIFF OMITTED] T5969A.619

[GRAPHIC] [TIFF OMITTED] T5969A.620

[GRAPHIC] [TIFF OMITTED] T5969A.621

[GRAPHIC] [TIFF OMITTED] T5969A.622

[GRAPHIC] [TIFF OMITTED] T5969A.623

[GRAPHIC] [TIFF OMITTED] T5969A.624

[GRAPHIC] [TIFF OMITTED] T5969A.625

[GRAPHIC] [TIFF OMITTED] T5969A.626

[GRAPHIC] [TIFF OMITTED] T5969A.627

[GRAPHIC] [TIFF OMITTED] T5969A.628

[GRAPHIC] [TIFF OMITTED] T5969A.629


</pre></body></html>
